<html>
<title> - A REVIEW OF THE PRESIDENT'S FISCAL YEAR 2015 BUDGET REQUEST FOR SCIENCE AGENCIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                      A REVIEW OF THE PRESIDENT'S
                            FISCAL YEAR 2015
                  BUDGET REQUEST FOR SCIENCE AGENCIES

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 26, 2014

                               __________

                           Serial No. 113-69

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov


                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-139PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
VACANCY
















                            C O N T E N T S

                             March 26, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     5
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     7
    Written Statement............................................     8

                               Witnesses:

The Honorable Dr. John Holdren, Director, Office of Science and 
  Technology Policy, Executive Office of the President
    Oral Statement...............................................    10
    Written Statement............................................    12

Discussion.......................................................    27

             Appendix I: Answers to Post-Hearing Questions

The Honorable Dr. John Holdren, Director, Office of Science and 
  Technology Policy, Executive Office of the President...........    68

            Appendix II: Additional Material for the Record

Progress Report on Coordinating Federal Science, Technology, 
  Engineering, and Mathematics (STEM) Education..................   102

 
                      A REVIEW OF THE PRESIDENT'S
                            FISCAL YEAR 2015
                  BUDGET REQUEST FOR SCIENCE AGENCIES

                              ----------                              


                       WEDNESDAY, MARCH 26, 2014

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Welcome to today's hearing entitled ``A Review of the 
President's Fiscal Year 2015 Budget Request for Science 
Agencies.'' I am going to recognize myself for an opening 
statement and then the Ranking Member for her opening 
statement.
    The topic of today's hearing is the President's budget 
request for the coming year. This is the first of several 
hearings to examine over $40 billion in annual federal research 
and development spending within the Science Committee's 
jurisdiction.
    Unfortunately, this Administration's science budget 
focuses, in my view, too much money, time, and effort on 
alarmist predictions of climate change. For example, the 
Administration tried to link hurricanes, tornadoes, floods, and 
droughts to climate change. Yet even the Administration's own 
scientists contradicted the President.
    The Administration also has not been as open and honest 
with the American people as it should. When the Committee asked 
the EPA for the scientific data being used to justify some of 
the costliest regulations in history, their response was that 
they didn't have it even though they were using it. When we 
asked the National Science Foundation last year for their 
justification in funding numerous research grants, the NSF 
refused to provide a response.
    All government employees and their agency heads need to 
remember they are accountable to the American taxpayer who pays 
their salary and funds their projects. It is not the 
government's money; it is the people's money.
    Further, an estimated $300 million was spent in building 
the website Healthcare.gov prior to its public rollout last 
October. Secretary Sebelius rightly called this ``a debacle.'' 
In its haste to launch the Healthcare.gov website, it appears 
the Obama Administration cut corners that left the site open to 
hackers and other online criminals. According to experts who 
testified before the Science Committee, millions of Americans 
are vulnerable to identity theft from this website.
    For this reason, the Science Committee has twice asked the 
White House's Chief Technology Officer, Todd Park, to testify 
about his role in the development of the Healthcare.gov 
website. Rather than allow him to testify before Congress, the 
White House instead chose to make Mr. Park available for 
interviews with Time magazine. So much for accountability and 
transparency.
    The Administration's willful disregard for public 
accountability distracts from the important issues of how 
America can stay ahead of China, Russia, and other countries in 
the highly competitive race for technological leadership.
    Perhaps the greatest example of the White House's lack of 
leadership is with America's space program. The White House's 
approach has been to raid NASA's budget to fund the 
Administration's environmental agenda. In the last seven years, 
NASA's Earth Science Division has grown by over 63 percent. 
Meanwhile, the White House budget proposal would cut NASA by 
almost $200 million in Fiscal Year 2015 compared to what 
Congress provided the agency this year.
    And the White House's proposed asteroid retrieval mission 
is a mission without a budget, without a destination, and 
without a launch date. Rather than diminish NASA's space 
exploration mission, President Obama should set forth a 
certain, near-term, realizable goal for NASA's space 
exploration.
    Many experts believe that a Mars Flyby mission launched in 
2021 is a potentially worthy near-term goal. A human Mars 
mission would electrify the American public, excite American 
scientists, and inspire American students.
    Our leadership has slipped in areas such as space 
exploration where we currently rely on Russia to launch our 
astronauts into space; supercomputing where China currently has 
the lead; and even severe weather forecasting where European 
weather models routinely predict America's weather better than 
we can. We need to make up for lost ground.
    These budget hearings are about something far more 
important than simply numbers on a ledger. They are about 
priorities. And the Administration should reevaluate its 
priorities if we want to continue to be a world leader in 
science, space, and technology.
    That concludes my opening statement.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    The topic of today's hearing is the President's budget request for 
the coming year. This is the first of several hearings to examine over 
$40 billion in annual federal research and development (R&D) spending 
within the Science Committee's jurisdiction.
    Unfortunately, this Administration's science budget focuses, in my 
view, far too much money, time, and effort on alarmist predictions of 
climate change. For example, the Administration tried to link 
hurricanes, tornadoes, floods and droughts to climate change. Yet even 
the Administration's own scientists contradicted the president.
    The Administration also has not been as open and honest with the 
American people as it should. When the Committee asked the EPA for the 
scientific data being used to justify some of the costliest regulations 
in history, their response was that they didn't have it even though 
they were using it.
    When we asked the National Science Foundation (NSF) last year for 
their justification in funding numerous research grants, the NSF 
refused to provide a response.
    All government employees and their agency heads need to remember 
they are accountable to the American taxpayer who pays their salary and 
funds their projects. It is not the government's money; it's the 
people's money.
    Further, an estimated $300 million was spent in building the 
website Healthcare.gov prior to its public rollout last October. 
Secretary Sebelius rightly called this ``a debacle.'' In its haste to 
launch the Healthcare.gov website, it appears the Obama Administration 
cut corners that left the site open to hackers and other online 
criminals. According to experts who testified before the Science 
Committee, millions of Americans are vulnerable to identity theft from 
this website.
    For this reason, the Science Committee has twice asked the White 
House's Chief Technology Officer, Todd Park, to testify about his role 
in the development of the Healthcare.gov website. Rather than allow him 
to testify before Congress, the White House instead chose to make Mr. 
Park available for interviews with Time magazine. So much for 
accountability and transparency.
    The Administration's willful disregard for public accountability 
distracts from the important issues of how America can stay ahead of 
China, Russia, and other countries in the highly-competitive race for 
technological leadership.
    Perhaps the greatest example of the White House's lack of 
leadership is with America's space program. The White House's approach 
has been to raid NASA's budget to fund the Administration's 
environmental agenda. In the last seven years, NASA's Earth Science 
Division has grown by over 63 percent. Meanwhile, the White House's 
budget proposal would cut NASA by almost $200 million in Fiscal Year 
2015 compared to what Congress provided the agency this year.
    And The White House's proposed asteroid retrieval mission is a 
mission without a budget, without a destination, and without a launch 
date. Rather than diminish NASA's space exploration mission, President 
Obama should set forth a certain, near-term, realizable goal for NASA's 
space exploration.
    Many experts believe that a Mars Flyby mission launched in 2021 is 
a potentially worthy near-term goal. A human Mars mission would 
electrify the American public, excite American scientists, and inspire 
American students.
    Our leadership has slipped in areas such as: space exploration 
where we currently rely on Russia to launch our astronauts into space; 
supercomputing where China currently has the lead; and even severe 
weather forecasting where European weather models routinely predict 
America's weather better than we can. We need to make up for lost 
ground.
    These budget hearings are about something far more important than 
simply numbers on a ledger. They're about priorities. And the 
Administration should reevaluate its priorities if we want to continue 
to be a world leader in science, space, and technology.

    Chairman Smith. And the Ranking Member, the gentlewoman 
from Texas, Ms. Johnson, is recognized for hers.
    Ms. Johnson. Thank you, Chairman Smith, for holding this 
hearing and welcome, Dr. Holdren. It is always good to have you 
before our Committee.
    The Fiscal Year 2015 budget request makes it clear that the 
President remains committed to prioritizing investments in 
science and innovation. While limited by last year's two-year 
budget agreement, the President is proposing to identify new 
sources for research and development funding, including through 
much-needed tax reform. This new funding will also make a big 
difference for some of our top economic development and 
national security priorities. I welcome discussion on the 
Opportunity, Growth, and Security Initiative and I hope that my 
colleagues across the aisle will do the same before they 
outright dismiss it. For if we continue to flat-fund or cut our 
investments in science and innovation under the guise of fiscal 
constraint, our nation will suffer the consequences for many 
decades to come.
    Under flat and often uncertain budgets, we are not just 
ceding leadership in some areas of science and engineering; we 
are losing the next generation of discoverers and innovators. 
Early career scientists and engineers, even those in the top of 
their class, have increasingly come to believe that the Nation 
is unwilling to invest in them and their talents. If nothing 
changes, we will continue to experience a brain drain that will 
have profound implications for our country's ability to 
innovate and compete in the global economy.
    I will make just a few specific comments about the Fiscal 
Year 2015 budget proposal under discussion today. I am pleased 
with the Administration's continued commitment to advanced 
manufacturing R&D, and workforce development. I hope we can 
find a path forward for Congress to enact the bipartisan bill 
that would codify the national network for manufacturing 
innovation.
    I also support the increased funding for climate change 
research and mitigation. Climate change is real and its 
consequences are real, even if some uncertainties remain. It 
might be easy for the most privileged among us to sit back and 
say we will be fine regardless of the severity of the impacts, 
but the vulnerable among us are already hurting and scientists 
and economists predict it will get much worse. I am saddened 
that we keep debating this at all. I still hope we act before 
it is too late to direct our Nation's great brainpower to 
developing solutions to reduce the warming and mitigate the 
impacts in our most vulnerable communities.
    It is also why--this is also why I am pleased to see the 
Administration's strong budget proposal for the Department of 
Energy's Office of Energy Efficiency and Renewable Energy, as 
well as ARPA-E, which will go a long way toward building and 
capturing the jobs of a growing sustainable energy sector.
    At the same time, I have some questions and concerns about 
the budget proposal, including with respect to other parts of 
the DOE budget. I am also disappointed that once again we have 
a NASA budget request that would cut funding for the Nation's 
human exploration program even as the Space Launch System and 
Orion development projects are building hardware and getting 
ready for flight tests.
    In addition, the Administration's budget request 
inexplicably would cut funds for science, one of the most 
exciting and productive of NASA's enterprises.
    I also want to learn more about the new scaled-backed 
proposal to overhaul federal investments in STEM education. Now 
that we have the federal STEM education five-year strategic 
plan, I hope we can have a more productive discussion about how 
the budget proposal is aligned with the goals of the strategic 
plan and how experts in the stakeholder community are being 
engaged in major discussions.
    The truth is we all have things to be concerned about in 
this budget, but the root of the problem is that there isn't 
enough money to go around to adequately fund all of our 
priorities. The President and the agencies had to make some 
very tough choices. Some of our own choices may be different 
and Congress will have this opportunity to express those 
choices in our authorization and appropriations bills.
    But today, I look forward to hearing more from Dr. Holdren 
about the President's choices. As we move forward to 
reauthorize several of the agencies and programs within the 
Committee's jurisdiction, we need to give due consideration to 
the President's own proposals. Most importantly, I hope that 
any legislation that we bring to the Floor of the House reflect 
both the needs to invest in our future and our faith and 
integrity and potential of our nation's STEM talent.
    Thank you, Dr. Holdren, for being here today and thank you 
for your continued contributions to ensuring continued U.S. 
leadership in science and innovation.
    I yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Thank you, Chairman Smith, for holding this hearing and welcome, 
Dr. Holdren. It's always good to have you appear before the Committee.
    The fiscal year 2015 budget request makes it clear that the 
President remains committed to prioritizing investments in science and 
innovation. While limited by last year's two year budget agreement, the 
President is proposing to identify new sources for research and 
development funding, including through much needed tax reform. This new 
funding will also make a big difference for some of our top economic 
development and national security priorities. I welcome discussion on 
the Opportunity, Growth, and Security Initiative, and I hope that my 
colleagues across the aisle will do the same before they outright 
dismiss it. For if we continue to flat fund or cut our investments in 
science and innovation under the guise of fiscal restraint, our nation 
will suffer the consequences for many decades to come.
    Under flat and often uncertain budgets, we are not just ceding 
leadership in some areas of science and engineering, we are losing the 
next generation of discoverers and innovators. Early career scientists 
and engineers, even those in the top of their class, have increasingly 
come to believe that the nation is unwilling to invest in them and 
their talents. If nothing changes, we will continue to experience a 
brain drain that will have profound implications for our country's 
ability to innovate and compete in a global economy.
    I'll make just a few specific comments about the fiscal year 2015 
budget proposal under discussion today. I am pleased with the 
Administration's continued commitment to advanced manufacturing R&D and 
workforce development. I hope we can find a path forward in Congress to 
enact the bipartisan bill that would codify the National Network for 
Manufacturing Innovation.
    I also support the increased funding for climate change research 
and mitigation. Climate change is real and its consequences are real, 
even if some uncertainties remain. It might be easy for the most 
privileged among us to sit back and say we'll be fine regardless of the 
severity of the impacts. But the vulnerable among us are already 
hurting and scientists and economists predict it will get much worse. I 
am saddened that we keep debating this at all.
    I still hope we act before it is too late to direct our nation's 
great brainpower to developing solutions to reduce the warming and 
mitigate the impacts in our most vulnerable communities. This is also 
why I am pleased to see the Administration's strong budget proposal for 
the Department of Energy's Office of Energy Efficiency and Renewable 
Energy, as well as ARPAE, which will go a long way toward building and 
capturing the jobs of a growing sustainable energy sector.
    At the same time, I have some questions and concerns about the 
budget proposal, including with respect to other parts of the DOE 
budget. I am also disappointed that once again we have a NASA budget 
request that would cut funding for the nation's human exploration 
program, even as the Space Launch System and Orion development projects 
are building hardware and getting ready for flight tests. In addition, 
the Administration's budget request inexplicably would cut funding for 
science, one of the most exciting and productive of NASA's enterprises.
    I also want to learn more about the new, scaled-back proposal to 
overhaul federal investments in STEM education. Now that we have the 
Federal STEM Education five year strategic plan, I hope we can have a 
more productive discussion about how the budget proposal is aligned 
with the goals of the strategic plan, and how experts in the 
stakeholder community are being engaged in major decisions.
    The truth is we all have things to be concerned about in this 
budget, but the root of the problem is that there isn't enough money to 
go around to adequately fund all of our priorities. The President and 
the agencies had to make some very tough choices. Some of our own 
choices may be different, and Congress will have its opportunity to 
express those choices in our authorization and appropriations bills, 
but today I look forward to hearing more from Dr. Holdren about the 
President's choices.
    As we move forward to reauthorize several of the agencies and 
programs within this Committee's jurisdiction, we need to give due 
consideration to the President's own proposals. Most importantly, I 
hope that any legislation that we bring to the Floor of the House 
reflects both the need to invest in our future and our faith in the 
integrity and potential of our nation's STEM talent.
    Thank you, Dr. Holdren for being here today, and thank you for your 
continued contributions to ensuring continued U.S. leadership in 
science and innovation.

    Chairman Smith. Thank you, Ms. Johnson.
    Let me welcome Dr. Holdren back to the Committee and we 
appreciate his being here today. He is our only witness.
    Dr. Holdren serves as the Director of the Office of Science 
and Technology Policy at the White House where he is both the 
Assistant to the President for Science and Technology and Co-
Chair of the President's Council of Advisors on Science and 
Technology.
    Prior to his current appointment by President Obama, Dr. 
Holdren was a professor in both the Kennedy School of 
Government and the Department of Earth Science at Harvard. 
Previously he was a member of the faculty at the University of 
California Berkeley where he founded and led a graduate degree 
program in Energy and Resources. Dr. Holdren graduated from MIT 
and Stanford with degrees in aerospace engineering and 
theoretical plasma physics.
    Dr. Holdren, welcome, and we look forward to your 
testimony.

              TESTIMONY OF JOHN HOLDREN, DIRECTOR,

            OFFICE OF SCIENCE AND TECHNOLOGY POLICY,

               EXECUTIVE OFFICE OF THE PRESIDENT

    Dr. Holdren. Well, thank you very much, Chairman Smith, 
Ranking Member Johnson, Members of the Committee. I am pleased 
to be here to discuss the civilian science and technology 
components of the President's Fiscal Year 2015 budget.
    I want to start by observing that science and technology as 
a whole do better in this budget than might be expected given 
the stringent caps that apply. Under those caps, we are not 
able to propose as much for R&D and for STEM education as the 
challenges and opportunities warrant, but the priority that the 
President places on these domains is evident in the fact that 
the 1.2 percent increase for R&D in his budget over Fiscal Year 
2014 enacted is six times bigger in percentage terms than the 
0.2 percent increase in discretionary spending overall set by 
Congress in the bipartisan budget act last December. And STEM 
education in the President's budget is up 3.7 percent over 
Fiscal Year 2014 enacted.
    While the base budget in the President's submission for 
Fiscal Year 2015 comports with the caps in the bipartisan 
budget act, he has also put forward in his submission a vision 
for stronger investments in America's future in the form of a 
supplementary $56 billion Opportunity, Growth, and Security 
Initiative. While requiring additional Congressional action, it 
would be fully paid for by spending reforms and closing tax 
loopholes and would come close to restoring Fiscal Year 2015 
discretionary spending to the level originally planned in the 
Budget Control Act of 2011. The $56 billion would be divided 
equally between the defense and nondefense categories and $5.3 
billion of it would support research and development. This 
would take the $135.4 billion for R&D in the regular budget up 
to $140.7 billion, which would be a 5.2 percent increase over 
Fiscal Year 2014 enacted. And that supplement would include 
nearly $900 million for NASA.
    In my written testimony I describe some of the other 
supplementary R&D investments proposed in the initiative. I 
just want to mention here a few other points in my written 
testimony that I think deserve particular emphasis.
    First of all, within the spending caps, the budget provides 
for a 1.2 percent increase in the combined budgets of the 
National Science Foundation, the Department of Energy's Office 
of Science, and the National Institute of Standards and 
Technology labs to $13 billion. These three agencies were last 
authorized in the America COMPETES Reauthorization Act of 2010. 
I look forward to working with the Congress on reauthorizing 
the COMPETES legislation and its support for these three 
crucially important science agencies.
    The President's budget for NASA within the spending caps is 
$17.5 billion. Consistent with the provisions of the NASA 
Authorization Act agreement between the Congress and the 
Administration, the budget funds continued development of the 
Space Launch System and the Orion multi-purpose crew vehicle to 
enable human exploration missions to new destinations. It funds 
the continued operation and enhanced use of the International 
Space Station, which the Administration recently announced its 
commitment to extend through at least 2024.
    It funds the further development of private sector systems 
to carry cargo and crew into low-Earth orbit thus 
reestablishing a cost-effective U.S. capability for these 
missions and shortening the duration of our sole reliance on 
Russian launch vehicles for access to the Station.
    It funds a balanced portfolio of space and Earth science, 
including a continued commitment to new satellites and programs 
for Earth observation. It funds a dynamic space technology 
development program and it funds a strong aeronautics research 
effort. I look forward to continuing to work with Congress and 
with this Committee on reauthorizing NASA.
    The budget requests $5.6 million for OSTP, my office, the 
same as Fiscal Year 2014 enacted, to support OSTP's diverse 
missions in overseeing and coordinating science and technology 
efforts across the Executive Branch, including efforts that 
Congress asked us to undertake in the two COMPETES Acts, the 
NASA Authorization Act, and other legislation.
    As a final point, I want to emphasize the Administration's 
ongoing commitment within the President's science and 
technology budget not just to R&D but also to STEM education to 
better prepare the next generation of discoverers, inventors, 
high-skilled workers, and science-savvy citizens. As I noted 
earlier, the budget's $2.9 billion for STEM education programs 
is a 3.7 percent increase over Fiscal Year 2014 enacted.
    My written testimony and the STEM Education Report I 
delivered to Congress this week update the Committee on how the 
2015 budget proposal for STEM education differs from last 
year's. To summarize, the 2015 budget makes important changes 
that reflect input from the STEM education community and from 
the Committee. This budget continues to reduce fragmentation of 
STEM education programs across government but it does not 
transfer functions and the associated funding between agencies 
and it focuses strongly on the five key areas identified by the 
federal STEM education five-year strategic plan released last 
May.
    In closing, I look forward to continuing to work with the 
Committee to strengthen the Nation's science and technology 
portfolio and to achieve the economic and other societal 
benefits it underpins. I will be happy to try to answer any 
questions the Members may have.
    [The prepared statement of Dr. Holdren follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. Okay. Thank you, Dr. Holdren.
    I will recognize myself for five minutes for questions.
    My first one goes to the budget, and in your testimony you 
cite three agencies: the National Science Foundation, the 
Department of Energy's Office of Science, and the NIST labs as 
having been identified as especially important to the nation's 
continued scientific and economic leadership, and I agree with 
you. But the last budget request by President Bush in 2008 was 
higher in real spending terms for those three agencies than 
President Obama's current budget.
    [Chart:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Smith. And on the screen to our left and right you 
will see a chart that shows that in equivalent 2015 dollars, 
President Bush's Fiscal Year 2009 COMPETES request was about 
$300 million more than that of President Obama. This will 
surprise a lot of people who may have read otherwise. My 
question is fairly simple. Why is the Administration's budget 
request, at least in my view, going in the wrong direction?
    Dr. Holdren. Well, first of all, I will agree with Ranking 
Member Johnson in her opening statement that there simply is 
not enough money to fund all of the Administration's 
priorities. We are suffering through an era of very difficult 
choices. The essence of the matter I think is the President's 
proposal for the supplementary initiative--the Opportunity, 
Growth, and Security Initiative--which would boost the funding 
of NIH by almost $1 billion, boost the funding of NASA by 
nearly $900 million, boost the funding of NSF by half-a-billion 
dollars, and so on.
    So what we are hoping is that the vision of the President 
for science and technology as embodied not just in the base 
budget but in the Opportunity, Growth, and Security Initiative 
will be welcomed by the Congress and will lead to funding 
levels that more adequately address the challenges and the 
opportunities.
    Chairman Smith. And, Dr. Holdren, as I mentioned in my 
opening statement, it really comes down to a matter of 
priorities, and in this instance, as I also emphasized, I think 
the Administration needs to perhaps reevaluate its priorities 
when we had the Bush Administration spending more on those 
nondefense research and development than the current 
Administration.
    Let me go to a question about the National Science 
Foundation. When you testified last year, you agreed that there 
was room for improvement as to how the National Science 
Foundation prioritizes grants.
    [Chart:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Smith. On the screen now are six NSF-funded 
studies out of many dozens that to me are questionable. You 
have studied fishing practices around Lake Victoria in Africa, 
$15,000; $340,000 to study the ecological consequences of early 
human-set fires in New Zealand; a three-year, $200,000 study of 
the Bronze Age on the island of Cyprus; surveying lawsuits in 
Peru from 1600 to 1700, $50,000; the Climate Change Musical 
that was prepared for Broadway but I am not sure ever was 
actually produced, $700,000; and causes of stress in Bolivia, 
$20,000. Well, what causes a lot of the stress is studying 
stress in Bolivia.
    My question is this: Do you think the National Science 
Foundation should in fact provide the public--it is their 
taxpayers' dollars that are paying for these--with 
justification for why the research grants they choose are 
worthy of funding?
    Dr. Holdren. Let me make a couple of comments to that 
question. First of all, I did say improvement was possible at 
the NSF with respect to transparency, effectiveness, and so on. 
I think improvement is possible in virtually every human 
institution, and I think the NSF has improved in the 
intervening time. They have issued new guidelines both to their 
grantees and to their employees about transparency and 
explanations of the importance and relevance of the research 
that they fund. These are posted on the NSF website. I am not 
in a position to address on the fly individual grants.
    Chairman Smith. I understand that.
    Dr. Holdren. I suggested in the last time I testified here 
I am not sure any of us in this room are as good a judge of the 
relevance of research projects and social----
    Chairman Smith. Dr. Holdren, excuse me for interrupting you 
but I want to finish up one more question in a second. But I 
think my question really went to whether you feel that the 
National Science Foundation should justify these grants one way 
or the other? And I know they--as you say, they have been 
making some changes. So far, all we have heard is that words; 
we haven't actually seen these changes implemented yet and I 
know you are going to help us with that. But don't you feel 
that NSF should justify these grants to the American taxpayer?
    Dr. Holdren. I believe they do justify the grants to the 
American taxpayers in what they post on their site about the 
evaluations, but I would also note that the Organic Act, the 
National Science Foundation Act of 1950, says that what the 
Foundation is supposed to do starts with promoting the progress 
of science and then it goes on to say ``to advance the national 
health, prosperity, and welfare to secure the national 
defense----
    Chairman Smith. Right.
    Dr. Holdren. --and other purposes.'' Funding basic research 
is in the NSF's mission. It is our most important funder of 
basic research. We should let it continue to do that.
    Chairman Smith. We are going to have to agree to disagree 
perhaps. I do not think that they have justified these grants, 
at least in what they have publicly posted. And as I mentioned 
to you earlier, I wrote a letter almost a year ago to the head 
of the National Science Foundation and I am still waiting for 
justification on a number of grants, and I think you are going 
to try to help me get those justifications.
    Dr. Holdren. I will try to help.
    Chairman Smith. Okay. Let me yield myself an additional 
minute, and I don't do that very often but I would like to 
squeeze in one more question and this goes to NASA.
    In December 2012 the National Academy of Sciences released 
a report about NASA's strategic direction. That report stated 
that ``the committee has seen little evidence that a current 
stated goal for NASA's human spaceflight program--namely, to 
visit an asteroid by 2025--has been widely accepted as a 
compelling destination by NASA's own workforce, by the nation 
as a whole, or by the international community.''
    NASA's own advisory group found the asteroid retrieval 
mission ``to be very interesting and entertaining,'' but ``it 
was not considered to be a serious proposal.'' Combine the 
asteroid retrieval mission with the Obama Administration's 
track record of canceling space exploration programs, first the 
Constellation program, then a joint robotic mission to Mars, 
and now SOFIA, an infrared telescope that flies aboard a Boeing 
747, and then add in the Administration's proposed budget which 
cuts NASA by $186 million, and you have to wonder if the 
Administration is really committed to space exploration.
    [Chart:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    My question is this: As we can see from this chart, the 
Administration's budget request is down nine percent in real 
dollars compared to the last year of the Bush Administration. 
Is there a good explanation for this?
    Dr. Holdren. First of all, Mr. Chairman, the last Bush 
Administration was not laboring under the budget caps that we 
are laboring under now.
    Chairman Smith. As I said a while ago, it is a matter of 
priorities.
    Dr. Holdren. It is a matter of priorities. There is not 
enough to go around, and if we get the Opportunity, Growth, and 
Security Initiative, it will enable boosting NASA very 
substantially.
    Chairman Smith. But meanwhile, the Administration doesn't 
give as great a priority to NASA as it does to a lot of other 
programs. Obviously, that is the result.
    Dr. Holdren. Let me address your comment about the asteroid 
mission. The quote you mentioned was two years old. The 
asteroid mission has been reformulated and better explained and 
now has a strong buy-in, not only from NASA staff----
    Chairman Smith. They still don't have a budget and they 
still don't have an asteroid and they still don't have a launch 
date. That doesn't sound to me like a very serious program.
    Dr. Holdren. There is a budget. There is a target in time 
for achievement of the mission, and it uses--one of the great 
attractions of the asteroid mission is it uses capabilities we 
are already paying for. It will use the SLS, it will use the 
Orion, it will use an electric propulsion----
    Chairman Smith. And other missions would use those same--
use the same equipment I think much sooner. And you had the 
Administration actually cutting SLS and Orion. Again----
    Dr. Holdren. Not a bit.
    Chairman Smith. --I don't agree with their priorities.
    Dr. Holdren. They are going to stay on schedule. We will 
have SLS. We will have Orion----
    Chairman Smith. Right.
    Dr. Holdren. --and we will use them for the next space 
exploration.
    Chairman Smith. And again, it appears by the cuts that the 
Administration's priorities do not coincide with this 
Committee's priorities, but I thank you for your answers.
    The gentlewoman from Texas, Ms. Johnson, is recognized for 
her questions.
    Ms. Johnson. Thank you very much.
    Dr. Holdren, a number of my colleagues continue to question 
the value of the federal investments in social, behavioral, and 
economic sciences. In the most recent effort among many, the 
FIRST Act, as introduced, proposed to cut NSF's modest 
investment in social sciences by 40 percent. And my colleagues 
seem unable to connect the dots between human sciences and our 
national interest. Can you please remind us once again both how 
small our social science budget is relative to our overall R&D 
budget, and more importantly, what we lose in terms of benefits 
to society when we arbitrarily cut and restrict support for 
competitively awarded social science research?
    Dr. Holdren. Okay. Let me start with the Social, 
Behavioral, and Economic Sciences line within NSF. It, in the 
Fiscal Year 2015 request, is $272 million out of a total 
research sum of $5.8 billion, so it is a very, very modest 
proportion of the NSF budget.
    The second thing I would say is there has been abundant 
documentation of the benefits to society of NSF's investments 
in this domain. Those fall in the categories of making our 
democracy work better, including work on the conduct of 
elections, management of common property resources without 
regulation, decision-making under uncertainty, understanding 
negotiation and compromise, and more. Tracking and improving 
economic and social well-being, economic and social databases 
and statistics, understanding poverty, understanding what works 
in teaching, improving public health and safety, risk 
communication, what causes people to get out of the way of 
hurricanes and tornadoes, what works, optimizing disaster 
response, controlling the spread of infectious diseases through 
social behavior, reducing human trafficking, understanding the 
patterns of crime enabling us to map crime, allocate law 
enforcement resources better, national defense and 
international relations, understanding the conduct of other 
nations, understanding the effectiveness of sanctions, 
nonverbal communication which helps our troops function in 
environments where other languages are spoken, 
interdisciplinary work involving social and economic sciences 
in cybersecurity, in geographic information systems, in 
neuroscience, psychology, language learning, decision 
processes.
    I think we are getting a lot of bang for the buck out of 
social, behavioral, and economic sciences in NSF.
    Ms. Johnson. Thank you very much.
    In the FIRST Act, some of my colleagues are proposing to 
move the interagency STEM education coordinating committee, 
known as CoSTEM, from the National Science and Technology 
Council to NSF. CoSTEM was created at the NSTC in response to a 
requirement that we put in the 2010 COMPETES Act. I have a few 
concerns about this, including taking resources out of other 
important NSF programs and also the decreased stature of the 
Committee if we move it out of the White House. What are your 
thoughts on moving CoSTEM's responsibilities to NSF?
    Dr. Holdren. Well, thank you for that question. I think the 
CoSTEM, the Committee on STEM education, should stay where it 
is in the National Science and Technology Council. The reason 
for that is the NSTC is the body that was set up to coordinate 
and oversee STEM-related activities that cross agency and 
department boundaries.
    And of course, as further discussion will doubtless 
illuminate and as this Committee knows, the STEM education 
function is spread across many different departments and 
agencies in this government, harnessing the special 
capabilities of NASA, of NIH, the Department of Education, the 
NSF, the Smithsonian Institution. And it is obviously in the 
interest of coordination and efficiency that the oversight of 
that operation be in a place that includes all of the 
stakeholders, all of the participants as the NSTC CoSTEM does.
    Ms. Johnson. Thank you very much. Well, I have 15 more 
seconds.
    Many of us have concern about some of the numbers in the 
President's R&D budget request. For example, the request for 
NSF is below inflation, but the President is also proposing R&D 
funding as part of the Opportunity, Growth, and Security 
Initiative. How does this initiative fit into the President's 
commitment to continue our investments in science and 
innovation?
    Dr. Holdren. Well, as I said in my testimony, we think the 
base budget doesn't have enough room for all of the priorities 
of the President and what we think should be the priorities of 
the Nation, and that is why that supplemental Opportunity, 
Growth, and Security Initiative was devised, to provide an 
opportunity for the President to say what he thinks we really 
need and to provide the Congress an opportunity to provide it.
    Ms. Johnson. Thank you very much.
    I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for his questions.
    Mr. Rohrabacher. Thank you very much.
    And Dr. Holdren, thank you very much for being with us 
today.
    We have heard the word prioritize a lot here, and in order 
to prioritize of course we have to make sure that judgments are 
being made and priorities are being made based on accurate 
information and especially when we are talking about major 
energy and environmental decisions that would have amazing 
costs to society, as well as jobs and reflect the standard of 
living of our people.
    The Acting Assistant Administrator of EPA Janet McCabe was 
here just a short time ago and I had to ask her a question five 
times before I got an answer, and then she really didn't answer 
it at that point. So I would kind of like to ask you if I could 
get an answer to this question from the Administration.
    We keep seeing this being presented to us as a fact saying 
that global warming is being caused by human activity and that 
97 percent of all the scientists believe that global warming is 
caused by--that there is global warming and it is caused by 
human activity. When I am looking at where they get the 
information and as you look very closely at this, you find out 
that invitation was sent out to 10,000 Earth scientists. Less 
than 1/3 responded, and of those, the pool is narrowed down and 
this turns out to be 97 percent of 77 scientists who were 
selected. And we have even heard this figure repeated here in 
this chamber and in our debates.
    Now, let me just ask you now. Do you believe that 97 
percent of the scientists believe that global warming is a 
product of human behavior?
    Dr. Holdren. I wouldn't put a lot of stock in any 
particular number to two significant figures. I believe that 
the vast majority of scientists who are actively working in the 
domain of climate science take it as the established consensus 
view----
    Mr. Rohrabacher. Right.
    Dr. Holdren. --that global warming is real, it is 
happening, it is caused in substantial part by human activity--
--
    Mr. Rohrabacher. So you agree---
    Dr. Holdren. --and it is already doing harm.
    Mr. Rohrabacher. All right. But you agree that this is a 
bogus figure?
    Dr. Holdren. No, I wouldn't say it is a bogus figure. I 
would just say that there are considerable uncertainties around 
an exact figure. But the fact is, for example, that the 
National Academies----
    Mr. Rohrabacher. Mr. Holdren, I am asking----
    Dr. Holdren. If I may finish----
    Mr. Rohrabacher. --you a direct question. Why can't anybody 
admit that you have got a group of people reading out a bogus 
theory here?
    Dr. Holdren. This was published in a peer-reviewed article. 
It was based on generally accepted social science practices for 
doing polling where you never get a complete response. I am not 
going to defend 97 percent as accurate to the two significant 
figures that provided----
    Mr. Rohrabacher. Okay. That is good.
    Dr. Holdren. --but I would remind you----
    Mr. Rohrabacher. Okay. So that----
    Dr. Holdren. --that every National Academy of Sciences in 
the world, including all of the National Academies of the 
G8+5----
    Mr. Rohrabacher. Yes.
    Dr. Holdren. --or what is now the G7+5----
    Mr. Rohrabacher. Yes.
    Dr. Holdren. --have agreed and issued a joint statement 
that climate change is real, largely caused by humans, 
dangerous, and we need to take action----
    Mr. Rohrabacher. And does the Russian Academy of Sciences 
agree with that?
    Dr. Holdren. Yes.
    Mr. Rohrabacher. Then why did the head of the Russian 
Academy of Sciences tell me just the opposite?
    Dr. Holdren. I have no idea----
    Mr. Rohrabacher. All right.
    Dr. Holdren. --about a conversation----
    Mr. Rohrabacher. All right.
    Dr. Holdren. --that you might have had with the president 
of the Academy. They signed the statement.
    Mr. Rohrabacher. All right.
    Dr. Holdren. I can provide it to you for the record.
    Mr. Rohrabacher. Okay. Well, let me just note----
    Dr. Holdren. I would be happy to do so.
    Mr. Rohrabacher. Well, let me note for the record that I 
had a meeting with a large number of the scientists in Russia 
and the head of the Academy of Sciences said just the opposite 
to me.
    Let me ask this--about this. Do you believe that tornadoes 
and hurricanes today are more ferocious and more frequent than 
they were in the past?
    Dr. Holdren. There is no evidence relating to tornadoes, 
none at all, and I don't know of any spokesman for the 
Administration who has said otherwise.
    With respect to hurricanes, there is some evidence of an 
increase in the North Atlantic, although not in other parts of 
the world.
    With respect to droughts and floods, which were mentioned 
in an earlier statement, there is quite strong evidence that in 
some regions they are being--some regions----
    Mr. Rohrabacher. Right.
    Dr. Holdren. --they are being enhanced if you will----
    Mr. Rohrabacher. Right.
    Dr. Holdren. --by climate change, not caused by climate 
change but influenced by climate change.
    Mr. Rohrabacher. All right. Well, I note all of the--I 
don't want to sound pejorative but there are weasel herds what 
I used to call it when I was a journalist that in some areas--
globally, it is--there is not more droughts. Globally, there 
are not more hurricanes and they are not more ferocious, is 
that correct?
    Dr. Holdren. If you want to take a global average, the fact 
is a warmer world is getting wetter. There is more evaporation 
so there is more precipitation, so on a global average, there 
are unlikely to be more droughts. The question is whether 
drought-prone regions are suffering increased intensity and 
duration of droughts, and the answer there is yes.
    Mr. Rohrabacher. So we actually have more water and more 
drought. Okay. Thank you very much.
    Dr. Holdren. Absolutely.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentlewoman from California, Ms. Lofgren, is recognized 
for her questions.
    Ms. Lofgren. Well, thank you very much.
    And thank you very much, Dr. Holdren, for being here today 
and also for your tremendous service to our nation and your 
leadership in science generally. I am so pleased by the efforts 
that you have made.
    And I want to discuss in particular just a couple of things 
where I hope that we can have some--a different outcome than in 
the proposed budget. First, the reduction--SOFIA is something 
that has produced terrific results, and I realize that the--it 
is kind of ironic to hear people who voted for the sequester 
question the amount of budget available for science, but we do 
have a tight budget.
    But to me it is a problem to reduce when you have spent so 
much to get the results. And so I won't get into it. I will 
just say I do not believe that the Congress is going to accept 
the elimination of SOFIA. There will be a bipartisan effort to 
change that and I hope to be and plan to be part of that 
bipartisan effort.
    I wanted to raise the issue of the budget for fusion. As 
you know, last year, the National Academies released a report 
which found that several inertial fusion concepts, including 
the approaches taken by the National Ignition Facility and the 
Z Pulsed Power Facility have enough technical promise to 
justify dedicated federal support for inertial fusion R&D 
relevant to energy, not just the weapons reliability. However, 
there is no program currently in the federal government which 
directly officially supports inertial fusion research and 
technology development activities as it relates to energy 
production.
    Now, we have discussed this--I know Congressman Swalwell 
will probably have his own set of questions--with the 
Department of Energy and the new Secretary, but it--I would 
like to ask you to--whether you and the Secretary of Energy 
have had an opportunity to discuss the National Academy report 
and whether a collaboration might be in order to actually bring 
that National Academy suggestion into reality?
    Dr. Holdren. Well, let me start by saying, Congresswoman 
Lofgren, that the 2015 budget does provide $329 million for the 
continued operation of the National Ignition Facility and the 
Inertial Confinement Fusion program at Livermore, and I 
believe, and I think the Secretary of Energy would probably say 
the same, that the energy goal at NIF is served by the 
continuing effort to achieve ignition. The principal challenge 
with NIF is to get to ignition.
    Ms. Lofgren. Right.
    Dr. Holdren. There have been important steps forward but we 
are not there yet, and until NIF can get to ignition, there 
won't be a basis for figuring out how to turn it into an energy 
source. And we got $329 million that is going to that facility 
in continued pursuit of that goal.
    Ms. Lofgren. If I may, Dr. Holdren, and I do appreciate 
that you have been out there and certainly have boosted morale 
considerably by your visit to Sandia and Livermore. We have 
lost hundreds of employees at Lawrence Livermore lab and the 80 
scientists, and I was actually out at the lab a few weeks ago 
and the attrition rate is about 1-1/2 scientists a week.
    And here is my concern, that unless we can give some 
assurance as to stability, I mean Livermore is not in my 
district but it is an hour's drive from Silicon Valley and we 
have competition for these scientists and they are looking--
they are leaving. And so I want to make sure that we have the 
capacity to actually pursue. We have had some tremendous 
successes in the last few months. Obviously, we don't know, but 
recently one of the top scientists there said we don't have 
ignition yet but we have a lit match. And so we want to make 
sure that we get this done and I will just leave it at that.
    I wanted to touch on the open access issue. You have just 
given us the update, which I appreciate so very much. As you 
know, we had a little disagreement here in the Committee, the 
Subcommittee recently, and I just wanted to thank you for your 
efforts and to make sure that you are aware we are going to do 
our best that that does not go off the rails. I think it is 
essential that when the taxpayers pay for research, that 
scientists get access to that research, and I wanted to commend 
your efforts in that regard.
    And with that, I would yield back.
    Chairman Smith. Thank you, Ms. Lofgren.
    The gentleman from Texas, Mr. Neugebauer, is recognized.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Dr. Holdren, thank you for being here this morning. Two 
years ago in April of 2012, the President signed an Executive 
Order announcing the formation of an interagency working group 
led by the White House to coordinate and plan agency activities 
for hydraulic fracturing research. I think that was composed of 
the Department of Energy, EPA, the U.S. Geological Survey. It 
committed to developing this interagency plan. And I think at 
that time the Administration told Congress that they would see 
the research plan January of last year, and so that would have 
been January of 2013. That date came and went and January of 
2014 has come and gone. And it has been two years and we 
haven't seen anything from the report. Dr. Holdren, where is 
the plan?
    Dr. Holdren. Congressman, I will have to get back to you on 
exactly where the plan is. We certainly have been looking at 
the issue of fracking and with an eye to making sure that the 
very important resource represented by the gas and oil that can 
be produced in this way continues to be available to the 
American people by virtue of ensuring that the practices 
continue to warrant the confidence of the public that this is 
being done in a way that is not imperiling groundwater, that is 
not aggravating air pollution, and so on.
    As to the exact fate of this report, I would propose to get 
back to you for the record.
    Mr. Neugebauer. Well, I think I am troubled by a couple of 
things. One is that there was really not a lot of evidence to 
really justify, you know, moving down this road. You know, I am 
from Texas and we have been doing hydraulic fracturing in Texas 
for a very, very long time. And it appears that this 
Administration is on some kind of a witch-hunt trying to find 
some example somewhere, but unfortunately--or fortunately for 
the industry is that, you know, there has never been any 
evidence. But then we are going to go spend a bunch of money 
and promise, you know, that we are going to do this study, two 
years come and go, there is no study, yet the Administration 
still continues to take, in my opinion, a very negative, 
slanted view towards that technology.
    And so I have a couple questions that--if--while you are 
going to do a little research on there, I would like to know 
when we are going to see the report and----
    Dr. Holdren. I will be happy to let you know as soon as I 
find out when the report will be available, but I want to 
emphasize this is not a witch-hunt. It is not spending much 
money. But the point is there is widespread concern in the 
American public at least in some parts of the country that we 
have to make absolutely sure that this is done safely. I don't 
want and the President doesn't want to lose access to this 
natural gas and this oil because we have messed it up, and our 
intention is to maintain access to this economically--and in 
terms of security also very important--set of resources by 
making sure that the country does it right.
    Mr. Neugebauer. And while you are doing your research, it 
would be interesting to see, you know, how much money has been 
spent by the various agencies on this and how much time has 
been devoted to it. And I guess the other question is when the 
report is completed, you know, how will it be distributed?
    Dr. Holdren. Well, of course all of these reports that we 
produce end up being posted on the website of the relevant 
agency. Many of them end up being posted on the White House 
website. I will be happy to make sure that you personally get a 
copy when the report is ready, and I will again, as I have said 
for the record, provide you with an answer on the pace of 
development of this report, how much money has been spent, and 
so on.
    Mr. Neugebauer. Thank you.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Neugebauer.
    The gentleman from Illinois, Mr. Lipinski, is recognized.
    Mr. Lipinski. Thank you, Mr. Chairman.
    First of all, Dr. Holdren, thank you for your leadership at 
OSTP and for the Administration's commitment to advanced 
manufacturing. It is big area of focus for me and something 
that I believe is a big need for the country and looking to 
what our future is going to be in terms of economic growth and 
job creation.
    Institutes like the recently announced Digital 
Manufacturing Design Innovation Institute in Chicago which 
utilizes high-performance computing and digital tools to help 
industries make products better, faster, and more profitably 
are vital to reinvigorating our manufacturing base. And I think 
we should be doing more of those, as the Administration has 
been proposing.
    I also would like to thank you for your strong support for 
social science at NSF in the President's budget request. I know 
that Ranking Member Ms. Johnson had raised this issue and I 
just wanted to say I am glad to see healthy increases in 
spending for SBE for next Fiscal Year in the request, as you 
had mentioned in--earlier in answering the question.
    The first question that I wanted to raise addresses the 
future of exascale computing. I greatly appreciate the 
Administration's leadership on high-performance computing. In 
Illinois we are blessed to have two of the fastest 
supercomputers in the world with Mira at Argonne and Blue 
Waters at the University of Illinois. These two supercomputers 
make the DMDI Institute possible, make the--what is going to be 
done there and make Illinois a great place to put that 
institute.
    Unfortunately, the rest of the world is catching up to us 
and we need to continue making strides towards exascale 
computing. Could you give your thoughts on the future of the 
federal high-performance computing projects and how the budget 
helps us push the boundaries towards exascale?
    Dr. Holdren. Well, let me start by saying that the Obama 
Administration shares your view of the importance of high-
performance computing, which includes but is not limited to 
getting to the exascale. It also includes capabilities relating 
to handling very large, very high-velocity flows of data for 
those high-performance computers to use. It involves advances 
in software so that the capabilities of these multiple 
processor machines can be effectively utilized.
    We are currently engaged in a review of the whole high-
performance computing program, which OSTP is leading, along 
with all of the relevant departments and agencies with an aim 
toward ensuring that United States' capabilities in this domain 
remain the best in the world.
    And I would note that although it was pointed out earlier 
that the fastest computer in the world is currently a Chinese 
computer, its capabilities when one takes into account the 
data-handling capabilities and software performance 
capabilities, the United States is still in the lead in terms 
of real capacity of our high-performance computers.
    Mr. Lipinski. Any idea of when that review is going to be--
that you are conducting is going to be completed and----
    Dr. Holdren. I think a matter of months, not weeks but--
well, within a few months.
    Mr. Lipinski. All right. My next question focuses on STEM 
education. I recently learned that a new study will be released 
tomorrow on a Chicago-based STEM teacher professional 
development program at the Museum of Science and Industry. I am 
told the study will confirm the museum's innovative approach 
increases teacher knowledge and achieves higher rates of 
student growth. One-third of Chicago Public K-8 schools are 
involved with this program. I think this is an excellent 
example of the value that museums and science centers bring to 
the table not just for student learning but for teacher 
professional development.
    A lot of museums and science centers like MSI are looking 
at declining funding from federal programs, particularly with 
the proposed elimination of the competitive Education Grant 
program at NOAA and the lack of a line item for the program for 
science museums and planetariums at NASA. The Administration 
reorganized--reorganization proposal is somewhat changed from 
last year including 10 million for the Smithsonian rather than 
last year's 25 million. Can you give your thoughts on the value 
of the informal science education that museums and science 
centers provide and tell the Committee how this new proposal 
would fund STEM education broadly but also support these 
informal types of activities?
    Dr. Holdren. Well, to make this relatively brief, the 
proposal, as it has emerged in the Fiscal Year 2015 budget, 
does take account of the value of informal education, and that 
happens not just through what the Smithsonian does but it 
happens through what agencies like NASA and NOAA and NIH do in 
partnership with museums around the country. There are a lot of 
these partnerships; there are a lot of joint efforts which also 
involve the Department of Education.
    I happened to speak with NASA Administrator Bolden 
yesterday about NASA's STEM education programs and what they 
plan to do under the Fiscal Year 2015 budget, as well as what 
they are doing in Fiscal Year 2014, and he stressed, as I 
expect he will in his testimony tomorrow before the Space 
Subcommittee of this Committee, that NASA is working in close 
collaboration with a number of departments, the Department of 
Education and with a number of entities around the country, on 
this continuing use of NASA's extraordinary resources for 
inspiration and instruction to reach the wider community.
    Mr. Lipinski. I ran out of time. I yield back. Thank you.
    Chairman Smith. Thank you, Mr. Lipinski.
    The gentleman from Mississippi, Mr. Palazzo, is recognized.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Dr. Holdren, I heard SOFIA mentioned a little while ago, 
and could you kind of explain for this Committee why NASA 
invested about $1.1 billion and has been working on this 
project for over 23, 24 years; it just became operationally 
capable I believe 11 days before the President's proposed 
budget decided to eliminate this project and no longer invest 
in it leaving basically our German partners who have been a 
partner of NASA on this for over 20 something years; can you 
tell us a little bit about the project and why it was so 
important 20 years ago but it is no longer, I guess, relevant 
to our space program today?
    Dr. Holdren. I wouldn't say, first of all, that it is not 
relevant, but its high operating costs are very difficult to 
accommodate within the current budget caps. Just to explain to 
the group what it is, SOFIA stands for Stratospheric 
Observatory for Infrared Astronomy. It has been a joint project 
of NASA and the German Aerospace Center. It is an airborne 
observatory based on a Boeing 747 SP wide-body aircraft. It has 
a 2.5 meter diameter telescope, which accesses the sky through 
a special door built into the airplane. That telescope has 
particularly attractive capabilities because the Boeing 747 is 
flying above most of the water vapor in the atmosphere which 
would interfere with the infrared capabilities of the telescope 
and it is an attractive project----
    Mr. Palazzo. So you----
    Dr. Holdren. --but it was ranked behind other projects----
    Mr. Palazzo. Who ranked----
    Dr. Holdren. --by the Decadal Survey----
    Mr. Palazzo. Okay.
    Dr. Holdren. --conducted by the National Academy of 
Sciences----
    Mr. Palazzo. Right.
    Dr. Holdren. --which we rely on very heavily in making 
these----
    Mr. Palazzo. Was an internal review done? I mean you----
    Dr. Holdren. Oh, absolutely.
    Mr. Palazzo. Okay. And an external review? You are taking 
the Decadal report and saying it was a lower priority----
    Dr. Holdren. We are taking the Decadal report----
    Mr. Palazzo. Did you do a senior review, which is of course 
the process of where you have the community come in and 
actually analyze it for, you know, its benefit to the program?
    Dr. Holdren. I would have to defer to Administrator Bolden. 
You may want to ask him this tomorrow.
    Mr. Palazzo. Can we see a copy of this? I mean you said a 
report----
    Dr. Holdren. I say I will defer to Administrator Bolden. I 
know the issue was reviewed within NASA; I don't know that 
there was an external review beyond the Decadal Survey, which, 
as I say, ranked it behind other projects that we are 
continuing.
    Mr. Palazzo. I understand that, Dr. Holdren, but, you know, 
we invested $1.1 million in this project, been working on it 
for over 23, 24 years. It comes--it came operationally capable 
11 days before the President's budget was announced that it was 
no longer going to fund this project. So I mean we have to 
understand why we had invested American taxpayer dollars in 
something that apparently was extremely important to NASA and 
just as a--you know, a wave of a wand it is no longer 
important. The American taxpayer deserves this. Congress 
deserves an answer as well.
    And just real quick, I mean we understand that the Chinese 
are cultivating, you know, relationships in Europe a lot. You 
know, they are very aggressively pursuing our European friends. 
And so when this Administration just unilaterally cancels a 
project with one of our strong European partners, what kind of 
message does this send to the international community?
    Dr. Holdren. It is not a message I relish sending, but 
again, I would emphasize that there is not enough money to go 
around, and if the Congress will pass the President's proposed 
Opportunity, Growth, and Security Initiative, there will be 
nearly another $1 billion for NASA, and that SOFIA decision can 
be revisited.
    Mr. Palazzo. Well, I agree. There is--you know, we continue 
to fight over shrinking discretionary pots of money, and until 
this Administration and our colleagues get serious about 
addressing the number one drivers of our deficits and our debt, 
we are going to continue to have these issues where we are not 
going to be able to fund not only just NASA priorities, we are 
not going to be able to fund our Armed Forces. And, you know, 
at a time when the world has become a lot more dangerous, not 
safer, we are skirting our responsibilities. And I hope this 
President, I hope this--his Administration and future 
Congresses will address that serious issue in the future.
    I yield back.
    Chairman Smith. Thank you, Mr. Palazzo.
    The gentlewoman from Maryland, Ms. Edwards, is recognized.
    Ms. Edwards. Thank you, Mr. Chairman.
    And I would just like to say to my colleagues on the other 
side of the aisle I would be happy to work with them and I know 
the Members on the side would be if we are talking about 
increasing budgets that NASA would have, whether it is for 
SOFIA or other priorities so that those priorities meet the 
needs of the American people, but we haven't seen that kind of 
cooperation frankly.
    Dr. Holdren, I wanted to give you a chance to respond to 
how some Members use the titles--and we have heard it today--of 
a few National Science Foundation grants to imply that the 
research that was funded by the grant wasn't necessary or it 
wasn't of national interest. We have heard that this morning 
and I think it is fairly easy to imply that research may not be 
in the national interest by only giving the title, but when you 
really look into these studies--and I would urge my colleagues 
to do that before just reading the title--you realize their 
importance.
    For example, some Members have questioned grants studying 
stress in Bolivia. Well, if someone looked into the research 
and not just the title, what they would find is that this study 
was investigating a relatively isolated group of people who 
were remarkably resilient. Understanding a group like that and 
comparing it to the U.S. population, which is less resilient in 
some cases, could be helpful to understand the link between 
behavioral and social factors and diseases like cardiovascular 
disease that we are seeing in the U.S. population.
    Other grants that have been mentioned are similar, and once 
you look into the research, you actually read, you understand 
its importance.
    And so I wanted to give you a chance to respond to that and 
if you could leave me some time so that I can ask you about 
NASA.
    Dr. Holdren. I get the impression some of my answers have 
been a little long. I apologize.
    I would just point out that NSF, with the help and 
encouragement from this Committee, has taken steps to make more 
transparent and accountable their whole process. They have 
established an internal transparency and accountability working 
group, they have sent out instructions to all of their staff on 
standards for transparency and accountability in describing 
grants, and I think that is already showing up in the detail 
being provided in the justifications for grants on the NSF 
website. And I emphasize that that information is available on 
the NSF website, and people who are interested can take a look 
and find out whether the justifications for these awards are in 
fact persuasive.
    My own view is that NSF has done a great job with the peer 
review on these grants. Some of the funny-sounding titles, as 
you point out, when you look into them do make a lot of sense. 
And, you know, I just don't feel that I am well-qualified or 
that most people in this room are well-qualified to second-
guess NSF's superb peer-review committees. And the one place 
where improvement has been made is in the transparency of those 
justifications available to the Congress and available to the 
public.
    Ms. Edwards. Well, thank you very much. And I mean I will 
go to the NSF website and I would encourage my colleagues to do 
the same.
    Dr. Holdren, I wonder when we talked about SOFIA--and you 
can get back to the Committee about this and I know that we 
will be exploring it even more--it would be helpful to know the 
process that the Administration and that the Agency uses in 
justifying a cut to a program or eliminating a program. I think 
that is always difficult to absorb because programs aren't just 
programs; they are jobs and they are science and they are 
investments that have been made. But every once in a while, you 
know, you do have to kind of, you know, cut. And we understand 
that.
    But I would like to know with respect to SOFIA at some 
later point as we continue to examine the budget what the 
rationale was, what are the steps, the internal processes 
within the Administration to make a determination that SOFIA 
had to go. And if we were to restore SOFIA, wouldn't that mean 
adding another $83 to $85 million into the budget in order to 
restore that? And I just hope our colleagues understand that 
that is what the choice is.
    Dr. Holdren. Thank you. I will provide more information on 
SOFIA.
    I would note that NASA is looking at the possibility of 
other potential partners in the international community to 
defray those costs because, again, precisely the problem is 
there is just not enough money in the current budget to support 
the operating costs of that mission with just the partnership 
of the Germans. But if we can expand that partnership, that is 
one avenue, and another avenue of course is finding more money, 
which the Opportunity, Growth, and Security Initiative would 
do.
    Ms. Edwards. Great. Thank you very much and I yield back.
    Chairman Smith. Thank you, Ms. Edwards.
    The gentleman from Illinois, Mr. Hultgren, is recognized.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you, Dr. 
Holdren, for being here.
    From our previous discussions, I hope you know that I do 
appreciate you and appreciate the critical role that the Office 
of Science and Technology Policy can have in ensuring a 
competitive future for our children.
    That being said, it is hard for me to understand the 
misaligned science priorities this President has put forward in 
his budget yet again. Whether it is the federal government 
getting involved with things best handled at the state and 
local level or this Administration's focus on applied research 
and subsidies for favored industries that I see as crowding out 
the basic scientific research needed to bring about the next 
great technology, invention, or cure. This Administration does 
not seem to have its priorities in the proper place.
    I am a staunch supporter of STEM education and have been 
greatly impressed by the student-led robotics team in my 
district. Some of them guided me to complete an Hour of Code, 
programming a computer game through computer coding.
    The federal government has been funding STEM education for 
decades. Every year, a larger emphasis is placed on the subject 
and every year we hear how America is falling behind other 
countries in math and science.
    Dr. Holdren, do you get the sense of that the real problems 
with America's science education cannot simply be solved with 
more federal spending? Do you think there are larger societal 
issues to address that would place more value in spurring our 
kids to study math and science?
    Dr. Holdren. The short answer is, Congressman, that it is a 
larger societal issue. And one of the things we discovered 
going to other countries and the President has discovered 
talking to other heads of state in places where kids do better 
than our kids on the standardized tests is they are feeling 
more pressure from parents to do well in education. We need to 
get parents more involved in the importance of the education 
their kids are getting----
    Mr. Hultgren. I agree.
    Dr. Holdren. --and it is not just a matter of federal 
spending.
    Mr. Hultgren. I have seen it really with our robotics 
teams, the amazing commitment of the parents and mentors being 
engaged in this as well.
    There is a raging debate in my home State and across the 
country about the adoption of the Common Core State Standards 
and whether or not they are wise and sufficient to bring up the 
level of competitiveness of our country--that our country is 
pursuing. I would like to know what the role OSTP has had in 
consultation with stakeholder communities, federal agencies, 
and the States in developing curriculum for Common Core?
    Dr. Holdren. OSTP, to my knowledge, has not had a role in 
that Common Core process so I would need to look into whether 
there has been such a role in earlier times.
    Mr. Hultgren. If you could check, that would be great. You 
know, these standards are purported to be state-led efforts for 
Common Core. This is a--was through the action of the States 
and not coercion by federal government that they adopted these 
standards. But when I talk to my educators and local officials 
back in my district, they are only seeing this as a top-down 
initiative. Now, it is getting to the point where our schools 
are feeling as if they are being coerced into adopting these 
standards or their funding will get cut off. That kills the 
ability to collaborate and focus our education system on our 
kids.
    I want to switch subjects a bit. I would like to talk about 
federal R&D funding, one of my favorite subjects, especially in 
basic research where government does play a key role. The 
President has tried to turn science into a political wedge 
issue, which it is not and should never be. So I would like to 
clear up what his budget actually does to science and his 
precedents. Your budget provides $135.4 billion for federal 
investment in R&D. Do you know what the previous Administration 
proposed, Dr. Holdren?
    Dr. Holdren. Well, it would depend on which year they 
proposed it.
    Mr. Hultgren. Well, what I saw is $147 billion, which was 
20 percent more funding than we use in constant Fiscal Year 
2015 dollars. This certainly does not seem to match with the 
President's rhetoric, but what I find most alarming are the 
cuts in basic scientific research. Your proposal has $32.1 
billion going to basic research, is that correct?
    Dr. Holdren. I think that is right.
    Mr. Hultgren. When we are talking about budgeting, we are 
really talking about priorities and that is really what all 
this is about. There are limited resources. Families in our 
district are having to tighten their belts. We have to have 
priorities here as well.
    Under President Bush, the request was $32.2 billion in 
constant dollars but the basic R&D share was much higher. Under 
the current proposal, basic research will be at .8 percent of 
the federal budget. The previous Administration had it at 1.1 
percent, significantly higher. I know that you may try to 
justify these overall cuts by singling out the defense R&D cut; 
non-R&D was still a high priority during the Bush 
Administration. We need to get our priorities right or we will 
not continue to have the best research universities and in fact 
facilities available to our kids moving forward.
    In our constrained budgetary environment, we need to be 
sending clear signals to our kids as well as the increasingly 
international scientific community that science is important to 
us. The President's budget, I believe, fails to set this 
message--send this message, and I want to see that changed.
    So my time is expired. I yield back, Chairman.
    Chairman Smith. Thank you, Mr. Hultgren.
    The gentleman from Massachusetts, Mr. Kennedy, is 
recognized for his questions.
    Mr. Kennedy. Thank you, Mr. Chairman. Mr. Holdren--Dr. 
Holdren, it is good to see you again. Thank you for being here. 
Thank you for spending the time.
    I want to start, Doctor, by going back to an issue that I 
know you know is important to me and one that we have discussed 
at length on a number of occasions and I appreciate your 
followup and your advocacy on these.
    As you know, STEM education has been an issue that has been 
very important to me and important to Massachusetts and my 
district. The area of particular interest to me and I wanted to 
push on with you a little bit is middle-skilled jobs in 
coordination with community colleges and vocational schools.
    There is a report from the Brookings Institution--or 
Institute that came out about a year ago that highlighted facts 
that I am sure you are very familiar with, but that 26 million 
of all jobs--or, excuse me, 26 million U.S. jobs, 20 percent of 
all jobs require high knowledge in any one STEM field. Half of 
all STEM jobs, though, are available to workers without a four-
year college degree and those jobs pay on average $53,000 a 
year, about ten percent higher than jobs with similar 
educational requirements. STEM jobs that require high level of 
knowledge or high--over at least a bachelor's degree are 
clustered in certain Metropolitan areas that we all know--
Silicon Valley; Cambridge, Massachusetts; San Jose--but other 
STEM-based economies like--require--jobs are available for 
those that require less than a bachelor's degree. There are 
robust economies in Baton Rouge, Louisiana, and Birmingham, 
Alabama, and Wichita, Kansas, as well.
    And I guess my question for you, Doctor, is through much of 
the report that I have reviewed, there seems to be an absence 
of focus on community college, vocational schools, vocational 
training, technical training, and I want to get your thoughts 
as to 1) where the Administration is on this and 2) how we can 
be helpful and supportive.
    Dr. Holdren. We are aware of the gap in high skills worker 
education short of four-year colleges. Just a couple of months 
ago we brought a large number of community college Presidents 
into the White House to discuss what they are doing and how we 
can be more helpful in what they are doing to link up with 
manufacturing firms in their regions to create curricula that 
match training to the jobs that are actually available in those 
regions.
    The National Science Foundation's budget in the President's 
Fiscal Year 2015 proposal has something over $60 million for 
NSF's Advanced Technological Education program, the ATE 
program, which centers on education of technicians for high 
technology fields. So this is something we are working on.
    Mr. Kennedy. And what--and I appreciate that, Doctor.
    I visited a number of vocational schools and technical 
training schools in my district. These kids are coming out 
excited about math, excited about engineering, excited about 
science, building things that I certainly never built when I 
was in high school. I was--I still know the quadratic equation. 
I don't know what good that is doing me. These kids are 
building things that actually can work, and when their plumbing 
gets backed up, they can fix it and I have got to call one of 
them to come fix it.
    So I guess my point is these are jobs that aren't going to 
get outsourced. These are jobs that, as studies have shown, 
are--have a high earning capacity, and there are jobs that are 
available today that are going to be available in the future. 
And I would just ask that the Administration continue to focus 
on this, and if there are ways that we can be helpful on it, we 
certainly would like to be as well.
    Dr. Holdren. Thank you. And we will keep focused on it.
    Mr. Kennedy. Thank you. And one other issue that I just--I 
know my time is running short, but I wanted to see if you could 
comment on there has been a couple of articles of late, even 
just in the past couple of weeks, about the prevalence or 
increasing prevalence of private philanthropy to take over some 
of the--or to fill the need--the gap if you will from some of 
these--from the retraction in the government funding for basic 
research. Much of this philanthropy is obviously very well-
needed and we should encourage it and I certainly encourage it.
    The issue with it is that it is often pinpointed or--to a 
specific target by the donor, which is great and it is their 
money; they should do what they want with it. But do you see 
any long-term challenge with relying more and more on private 
philanthropy to fill the need here if we are not making the--
there seems to be broad-based support for this idea that this 
is one of the essential areas of basic responsibilities of 
government, yet an unwillingness to make that commitment.
    Dr. Holdren. I don't like the idea of calling it reliance 
on the philanthropic sector. I think we should welcome the 
engagement of the philanthropic sector and funding research in 
general and basic research in particular. And there is a new 
consortium of major private foundations which is working 
together to try to boost funding for basic research rather 
than, as you note, targeted research.
    There is a lot of the latter. We have some very important 
philanthropic support for the BRAIN Initiative----
    Mr. Kennedy. Um-hum.
    Dr. Holdren. --that this Administration has launched from a 
number of private foundations, but we are getting support as 
well for increased philanthropic funding of basic research. But 
that does not mean that the country can rely on that. It is not 
going to be big enough. The government needs to continue to 
meet its fundamental responsibility to support basic research 
in this country. We would like to be able to support more of it 
in this budget, and again, we will support more of it in this 
budget if we get the Opportunity, Growth, and Security 
Initiative supported by Congress.
    Mr. Kennedy. Thank you, Doctor.
    Mr. Chairman, thank you for the extra time.
    Chairman Smith. Thank you, Mr. Kennedy.
    The gentleman from Florida, Mr. Posey, is recognized.
    Mr. Posey. Thank you, Mr. Chairman.
    Dr. Holdren, always a pleasure to have you here.
    I wonder if you could give us a status on the supply, 
availability, inventory of Pu-238 and any other nuclear fuel we 
may need to travel in space?
    Dr. Holdren. My understanding is that there is a new 
agreement between NASA and the Department of Energy on 
producing plutonium-238 for our space missions, and I believe 
that that agreement will be to meeting the needs that we 
foresee.
    Mr. Posey. How much do we have in stock now?
    Dr. Holdren. I would have to get back to you on what is 
actually in the stockpile at this moment.
    Mr. Posey. Are you aware that they are getting rid of 
anything that we have in inventory now?
    Dr. Holdren. I am not sure what you mean by ``getting rid 
of.''
    Mr. Posey. That there may be plans to eliminate part of the 
inventory that we now have.
    Dr. Holdren. I am not aware of any such plans, but I will 
look into it. This is something I would have to explore with 
the Department of Energy.
    Mr. Posey. Okay. Do you have a pretty good idea of how long 
it takes to purify this plutonium and how much it costs to do 
that?
    Dr. Holdren. Not off the top of my head. I would expect 
that in terms of production, we are talking about a timescale 
of six months to a couple of years I would guess.
    Mr. Posey. And a whole bunch of money, but if you would 
check on that and seriously get with me and let me know the 
status of it----
    Dr. Holdren. Happy to do that.
    Mr. Posey. We had somebody here from the National Science 
Foundation, who had actually--who said she wasn't a scientist 
and so couldn't answer any questions. And I was just curious. I 
asked her how many Ice Ages she thought that this Earth had 
been through. I mean everything I can gather a minimum of 
three, a maximum some say from five to seven, but I just want 
to know how many Ice Ages you think we have gone through?
    Dr. Holdren. Well, again, I don't remember off the top of 
my head. I think the numbers you mentioned are in the ballpark 
but I would have to look at the record. The Earth has undergone 
climate changes throughout its entire history. The difference 
is that for most of that history there weren't seven billion 
people on the planet who needed to be fed, clothed, and kept 
prosperous, and the other difference is----
    Mr. Posey. Okay.
    Dr. Holdren. --that the pace of change was generally much 
slower.
    Mr. Posey. I am running out of time. I am running out of 
time. I am aware of that.
    You know, obviously we have had global warming for a long 
time. You can't have one seamless Ice Age that encompasses 
three Ice Ages. We had to have warming periods between each one 
of those. And so it is a natural phenomenon and, you know, just 
because we are alive now, the tectonic plate shifts aren't 
going to stop, the hurricanes and tsunamis aren't going to 
stop, the asteroid strikes aren't going to stop. These things 
have gone on for eons and they are going to continue to go on 
for eons.
    What do you think the temperature was on Earth before the 
disappearance of the dinosaurs?
    Dr. Holdren. There have been periods when the temperature 
was three, four, five degrees Celsius warmer than it is now, 
and the difference between the circumstances you are describing 
and the circumstance we are in now is the changes that are 
being imposed on the climate, in substantial part as a result 
of human activity, are faster than the ability of ecosystems to 
adapt and maybe even more importantly faster than the ability 
of human society to adapt. There are a lot of stresses, as you 
point out, that we can't control, but the stresses we can 
control that are imposing burdens on our society we ought to 
think about controlling.
    Mr. Posey. No doubt about that. And I don't think there is 
anyone--I haven't heard anyone say ever from either side of the 
spectrum that there is no such thing as climate change. I mean 
it is--we have had climate change since the day the Earth was 
formed, whenever that was depending on how--whatever you 
believe, and we will have climate change until the day the 
Earth implodes, whenever that is.
    The question is how much of the climate change do you think 
is influenced by human behavior?
    Dr. Holdren. The climate change we are experiencing now, 
the climate change we have been experiencing for the last 
several decades is, according to the Academies of Science, 
according to the Intergovernmental Panel on Climate Change, 
according to the view of most of the scientists who work on 
this, largely due to human activity. We are superimposing on a 
slow natural climate change a rapid human-induced climate 
change.
    Mr. Posey. But as a percentage, like you anticipate the 
climate would change X amount in a year without the existence 
of humans on it, how much more do you think as a percentage of 
the change is influenced by human behavior?
    Dr. Holdren. The natural changes which we understand and 
which are underway on a long-term basis as we speak would, if 
they were the only influences, be cooling the planet rather 
than warming it. We would be in a long-term cooling trend as a 
result of the natural forces affecting climate that we 
understand. We are instead in a warming trend which suggests 
that human activity is overwhelmingly responsible for the 
difference. We would be having cooling based on natural forces. 
We are having warming.
    Mr. Posey. I remember in the '70s that was a threat. We are 
going to have a cooling that is going to eventually freeze the 
planet and that was the fear before Gore invented the Internet, 
or the other terms.
    I had read that during the period of the dinosaurs, the 
Earth's temperature was 30 degrees warmer. Does that seem 
fathomable to you?
    Dr. Holdren. Thirty degrees sounds like a stretch to me but 
I will review the literature and get back to you.
    Mr. Posey. Thank you, Dr. Holdren, very much.
    I yield back, Mr. Chairman. Thank you.
    Chairman Smith. Thank you, Mr. Posey.
    The gentleman from Washington, Mr. Kilmer, is recognized 
for his questions.
    Mr. Bera. Mr. Kilmer is not here so----
    Chairman Smith. Dr. Bera for his questions, the gentleman 
from California.
    Mr. Bera. Great, thank you, Mr. Chairman. And thank you, 
Dr. Holdren, for being here.
    Obviously, we are in a very competitive global environment. 
We are in a very competitive global economy and, you know, that 
is not going to change in the near future. The one area that we 
do have a very competitive advantage over the rest of the world 
is in innovation. And clearly, we are still the most innovative 
country in the world; we are still the most innovative economy 
in the world, but we also recognize that we are starting to 
lose that advantage by not making the necessary investments to 
continue to move things forward.
    We also recognize that many of my colleagues have touched 
on the importance of training scientists and engineers to 
continue that economic advantage. Recently, I had a town hall 
at Intel with--Intel has a major presence in my district and I 
had the chance to meet with their leadership to talk about 
their future investments but also talk about their challenges. 
And clearly, one of the challenges that their leadership 
brought up was the lack of availability of engineers and also 
the lack of availability of folks that know how to write code. 
On this Committee we have also had a hearing on that as well 
and it is--you know, we have the folks from code.org testify.
    There are two things that really jump out in my mind. One, 
they said, you know, it can't happen at the college level. If 
we actually want to start our kids on coding and teach them 
those skills, it has to happen at the elementary school level. 
And, Dr. Holdren, I would be curious about your comments. 
Within the President's budget, within the STEM budget, if we 
truly want to have our kids not just learn reading, writing, 
and arithmetic but also have them learn the language of the 
future, which, you know, increasingly appears to be coding, are 
there initiatives both to put that into part of the Common Core 
as well as one of the challenges that repeatedly comes up is 
the lack of educators who actually know how to teach that 
coding as well and if there is funding to train the trainers or 
train the teachers?
    Dr. Holdren. Well, I would make--sorry. I would make a 
couple of comments on that. One, there is certainly funding in 
the President's budget for recruiting, preparing, and 
supporting more outstanding teachers in the STEM fields, which 
would include teachers who know how to code and who know how to 
teach coding. There is $40 million in the budget to support the 
goal of preparing 100,000 excellent STEM teachers over the next 
decade. There is $20 million to launch a pilot STEM master 
teacher corps.
    In addition, I would note that we have a problem with 
inadequate exploitation of the talent pool. Women are 
drastically underrepresented in engineering and in computer 
science. African-Americans and Hispanics are drastically 
underrepresented in these fields, and we have a series of 
programs aimed at improving inclusion opportunities for girls 
and women in STEM fields, opportunities for other 
underrepresented groups, including minorities. We have had a 
lot of effort on that front just in the last couple months in 
connection with Black History Month and then Women's History 
Month. And tapping a larger fraction of the Nation's talent 
pool for these purposes is going to be a very important part of 
the solution.
    Mr. Bera. Dr. Holdren, I am glad that you brought that up. 
I think the statistic that was quoted to me last week was it is 
less than 20 percent of all of our engineers are women at this 
juncture, the ones that are graduating. If you were to 
recommend to--again I think this committee has a desire to 
train those folks to fill those future jobs. What 
recommendations would you have for us as a body in getting more 
girls to think about engineering futures and careers, as well 
as some of the minority groups that are certainly 
underrepresented?
    Dr. Holdren. Well, this will seem very self-serving but I 
would hope that the Committee will support the President's 
budget in this domain because it has a lot of focus on those 
issues.
    Mr. Bera. Great. Last question. In my remaining time, the 
other area that I have focused on certainly is--as research 
budgets get tighter and so forth, one area that, you know, 
coming out of a background in higher education as an associate 
dean in a public university, research funding is becoming 
increasingly tight and we have talked a little bit about what 
we can do to enhance technology transfer and so forth. Do you 
have any recommendations that are both within the President's 
budget to allow the private sector to come in at an earlier 
phase?
    Dr. Holdren. Well, the President has been a strong advocate 
from the outset of his Administration of strengthening 
partnerships between the private sector, the academic sector, 
and including the national laboratories in that. The National 
Network for Manufacturing Innovation is a good example of that. 
The Energy Hubs that the DOE has set up are great examples of 
that. They are bringing private sector enterprises together 
with folks from research universities and national labs to 
build partnerships to grease the tracks if you will between 
discovery in the laboratory and a productive application in 
society. And we want to continue to do that and there is 
substantial support for that in the President's Fiscal Year 
2015 budget.
    Mr. Bera. Well, fabulous. We look forward to supporting 
those investments.
    I yield back.
    Chairman Smith. Thank you, Mr. Bera.
    The gentleman from New York, Mr. Collins, is recognized.
    Mr. Collins. Thank you, Mr. Chairman.
    I wasn't attempting to go down this road, Dr. Holdren, but 
you stated really twice today that SOFIA would be a priority 
under OGSI with increased funding, certainly implying very 
directly that SOFIA is an Administration priority. I would like 
to direct your attention to statements by NASA that actually 
brags about cutting SOFIA's budget to fund other programs.
    And I have here a letter, a document from OGSI that 
specifically states how they would spend the extra money, the 
$187 million. SOFIA is not listed there twice. I would like to 
ask you very directly why you have left this Committee with the 
impression, very direct impression, that SOFIA is a priority 
for the Administration where clearly it is not?
    Dr. Holdren. What I have said is SOFIA was ranked behind 
several other----
    Mr. Collins. Okay. So what you are admitting is it is not a 
priority.
    Dr. Holdren. --but----
    Mr. Collins. Is it or is it not a priority?
    Dr. Holdren. In better financial times----
    Mr. Collins. I am asking a direct question.
    Dr. Holdren. In better funding times----
    Mr. Collins. Would you answer the question, sir?
    Dr. Holdren. --we would support SOFIA----
    Mr. Collins. Is it a priority or not?
    Dr. Holdren. It is a lower priority than the things----
    Mr. Collins. Okay. Thank you, sir----
    Dr. Holdren. --that we are funding.
    Mr. Collins. --because you have implied it differently 
today and I don't appreciate the implication. It is 
hypocritical and disingenuous to leave this committee with the 
impression SOFIA was a priority and it is clearly not.
    So my next line of questions concerns security on 
Healthcare.gov. I Chair the Subcommittee on Healthcare and 
Technology in Small Business. We have had folks here on both 
sides of the aisle testify. Healthcare.gov was not secure when 
it was launched, is not secure today, and we have been 
attempting to get Mr. Todd Park to testify in front of this 
Committee on three occasions. The Administration has refused to 
make him available, and yet clearly Mr. Todd Park has had 
involvement in Healthcare.gov, and certainly with his 
background and his position now as an advisor to the President 
would and should have been involved with the security issues.
    So, you know, I guess, you know, I can read all the times 
Mr. Park has been involved, his involvement with CMS, his 
involvement with various meetings, his attendance at all these 
meetings and just have to ask you once again, in light of all 
the information and all the meetings and all the involvement of 
Mr. Park, how can your office state, which they have done just 
again recently with a letter to Chairman Smith, that none of 
your personnel have been involved with Healthcare.gov? Pretty 
bold statement.
    Dr. Holdren. We have not said that none of our personnel 
have been involved with Healthcare.gov. Mr. Park in particular 
was asked by the President--after the problems with 
Healthcare.gov materialized after its rollout, he was asked to 
become heavily involved. He has been very heavily involved in 
trying to address the problems of the website since that time.
    Mr. Collins. So you are implying----
    Dr. Holdren. We never said no----
    Mr. Collins. --he had no involvement prior to the launch?
    Dr. Holdren. We said his involvement has not been primarily 
associated with the security of the site. He is not a 
cybersecurity expert and the responsibility for the security of 
the site rested with CMS and with the interacting activities of 
CRS, the IRS, and the Social Security Administration.
    Mr. Collins. So you are suggesting that he was blindsided 
by the problems in this, had no knowledge of this as the 
advisor to the President, and all of a sudden when all of the 
problems, including experts who said this website should never 
have been launched, it was not secure the day it was launched, 
it is not secure today, Americans' privacy is in danger, their 
identity theft is real, and so you are saying this Mr. Park--
and that is why we want him to testify here. So let me just cut 
to the chase. Why won't you allow him to testify?
    Dr. Holdren. It has been the practice of this 
Administration from the beginning that assistants to the 
President who are not Senate-confirmed do not testify. We have 
other people who are experts in cybersecurity who are willing 
to testify before this Committee on cybersecurity issues. Mr. 
Park is not an expert in the cybersecurity aspects of the 
Healthcare.gov website and he is a direct report to the 
President of the United States. I can't compel him to come and 
testify. He doesn't report to me. I am not sure what else you 
want for an answer.
    Mr. Collins. Well, you know, much like SOFIA, I would like 
a more direct answer, not a dance like you have been dancing 
today. And the fact is the experts have testified that the 
website was not secure the day it was launched, it is not 
secure today, and yet, your office and others within your 
office are now just claiming ignorance; you had no idea this 
was coming. You woke up one day, oh my goodness, it is not 
secure. I think you--again, today, I have been very 
disappointed in your testimony, disingenuous, not direct, and I 
think deliberately misleading to this Committee.
    And with that, Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Collins.
    The gentlewoman from Connecticut, Ms. Esty, is recognized.
    Ms. Esty. Thank you, Mr. Chairman. And thank you, Dr. 
Holdren, for your many decades of service to this country and 
your willingness to serve in this challenging time.
    I wanted to briefly touch on three topics: first, STEM 
education, which I think you have now gathered is an extremely 
high priority of this Committee; secondly, the regional 
innovation initiatives; and third, climate change resiliency.
    I am very glad to hear that you mentioned the importance of 
including and reaching out to young women and to children of 
color. We cannot be competitive in the 21st century, globally 
competitive if we are leaving 60 percent of our workforce out 
of the STEM fields. So if you can elaborate on that aspect of 
how exactly you plan to do that. I would also recommend to you 
and ask you how you are reaching out to local stakeholders.
    I come from Connecticut. We have local companies like 
Stanley Black & Decker who are partnering with places like the 
Connecticut Science Center as well as our local community 
colleges, like Naugatuck Valley Community Colleges. They are 
working together with our local manufacturers to try to design 
some of these programs. I brought astronauts into the inner-
city to meet with middle school students to inspire them about 
the opportunities that are available.
    Can you talk a little bit with us about what efforts, going 
forward, the Administration is going to utilize to engage these 
local stakeholders to make sure that our programs actually will 
work on the ground?
    Dr. Holdren. Sure. Let me mention a couple of elements of 
the Fiscal Year 2015 budget proposal that address those issues. 
One is the STEM Innovation Networks. There is $110 million to 
help school districts individually and in consortia build 
partnerships, STEM Innovation Networks that would be 
partnerships with businesses, universities, museums, federal 
science agencies, and other entities to basically transform 
STEM teaching and learning and, I would add, inspiration by 
developing coordinated plans to do that in the STEM fields.
    There is $150 million in the budget in a program to 
redesign high schools to teach real-world skills basically 
relating to the earlier point that Congressman Kennedy was 
making as well to rethink the high school experience, 
challenging schools to scale up innovative models that provide 
rigorous and relevant education including for folks that are 
not going to go on to college but are going to go into high 
skills careers.
    The Network of Manufacturing Innovation Institutes will 
also be obviously a regionally focused set of efforts to link 
up schools, universities, national labs, businesses to the ends 
of that you are discussing.
    Ms. Esty. That is a great point to segue to the regional 
innovation centers, strong--I am strongly supportive of the 
efforts to expand those centers. I think they are going to be 
critically important to have this sort of innovation and 
linkage we need from basic research in our high-tech research 
universities, places like UConn whose medical center is in my 
district, Yale, which is right nearby, with our local 
communities, community colleges, high schools, elementary 
schools----
    Dr. Holdren. Um-hum.
    Ms. Esty. --as well, and our manufacturers. So I am 
strongly supportive of efforts to expand those efforts.
    Dr. Holdren. Right.
    Ms. Esty. And one thing I would like to flag that we have 
learned since this is a real passion of mine and very important 
to my district, it is going to be really important to engage 
the private sector in providing internship possibilities for 
students. Many of the--and this goes back to the inner cities 
in part and to girls. They need to have the opportunity to work 
and see in environments where they are actually doing this 
during the summer in a workplace setting where they understand 
the soft side skills as well as the culture, and that is 
critically important to inspire them and encourage them to 
pursue these fields, which are often very tough. So I just want 
to make a plug for that.
    Coming from the Northeast, living through this extremely 
challenging last couple of years, I would like quickly with the 
time I have remaining your thoughts about the climate 
resiliency--climate change resiliency theme in the budget 
through NOAA and EPA about the development of a climate change 
resilience toolkit and web portal? And how will improved access 
for this data help protect our communities on the impacts of 
climate change? And it seems more focused on attention to 
understanding and mitigating regional impacts. And can you sort 
of describe the reason to take that approach?
    Dr. Holdren. Okay. And very quickly, before I answer the 
last question, I do want to mention that the America COMPETES 
Act in 2010 authorized a number of Department of Commerce 
programs focused on regional innovation, and the President has 
proposed those. The Congress has funded them. They have created 
a variety of regional innovation clusters and partnerships of 
the sorts I described, so I think that is something we remain 
committed to in partnership with the Congress.
    We just rolled out last week the first tranche of the 
Climate Data Initiative, which is one of the elements of the 
President's Climate Action Plan. That Climate Data Initiative 
is being led by NOAA and NASA but has participation from a wide 
variety of other departments and agencies. The aim of it is to 
provide data that is transparent and informative and rigorous 
that local and regional decision-makers, communities, 
businesses, farmers, fishermen, individual citizens can use to 
better anticipate what climate change will be doing in their 
regions or their localities and to be better able to take steps 
to prepare for it and to minimize the damages that result from 
it.
    The first focus of the Climate Data Initiative is on sea 
level rise and coastal flooding. The next phase will be looking 
at agriculture. The phase after that I think will be looking at 
impacts on health. It will be followed by a resilience toolkit 
that provides a variety of applications which will make it 
easier for people to make use of these data, understanding what 
they mean, and applying them to their local needs.
    Climate change obviously is a problem that is global in its 
origins and in its dynamics but its effects are local, and that 
is why the focus of the Climate Data Initiative and the whole 
resilience and preparedness approach is local and regional, 
because climate change is not uniform and people in different 
regions and localities need to be prepared for what is going to 
happen there.
    Ms. Esty. Thank you. And I appreciate your indulgence, Mr. 
Chairman, in letting him finish the answer to that question. 
Thank you.
    Chairman Smith. Thank you, Ms. Esty.
    The gentleman from Arizona, Mr. Schweikert, is recognized.
    Mr. Schweikert. Thank you, Mr. Chairman.
    Professor, I have got to tell you, out of all the positions 
in government, you actually I think may have one of the most 
interesting jobs but you also have an interesting effect on 
what the future, long after you and I are probably gone, will 
have.
    I will do my best here to sort of have a linear thought in 
these questions. The--in your discussions with the 
Administration--and the first one I am going to ask you about 
is the ICANN decision recently. I am a great believer that sort 
of egalitarian access, you know, crowdsourcing of information 
and data being available is crucially important and it is also 
sort of the ultimate vetting of what is out there in science. 
Has there been any discussion of protocols of what will be done 
to make sure that if we have given up dominance of sort of 
internet policy, that that dominance won't be taken by whether 
it be the U.N. where the majority of member states are not, you 
know, free democracies, how do we make sure that the world has 
sort of an open free speech environment on the internet?
    Dr. Holdren. There has of course been discussion of that. 
It is a focus of ours. We are certainly not giving up influence 
and it is not our intention to allow the internet to go in a 
direction that imperils free speech.
    Mr. Schweikert. One of my real concerns here is that, you 
know, as Americans we are all free speech advocates but I 
believe the head administrator of ICANN now has often spoken 
that he would like a U.N. body. Well, you and I know the 
majority of member states in the U.N. aren't anywhere near 
where we are culturally in the protection of free exchange of 
speech. So it is just--it is a real concern. Has this at least 
hit a high level of discussion?
    Dr. Holdren. It has. We are concerned about it, too, and we 
are determined to hold the line.
    Mr. Schweikert. Why would we have made sort of the 
statement that we are going to walk away from sort of our 
managerial control until that sort of underlying agreement was 
designed?
    Dr. Holdren. This is not my field of expertise and I am not 
sufficiently familiar with the arguments that were gone 
through. I know they were intensive. As in many other domains, 
this is an area where globalization has been going on and it is 
sometimes difficult to retain a position of absolute dominance 
over time when that is happening. But I would be happy to get 
back to you----
    Mr. Schweikert. It is just----
    Dr. Holdren. --with more information about that process.
    Mr. Schweikert. --as you know, for many of us who are, you 
know, free speech advocates, we always have a concern that we 
are paying for NSA sin in perception, so just where that may 
be.
    Science advisory body, the advice, the information that is 
often given to agencies that are asking for direction and 
modeling, this Committee is dominant in the statute that 
actually creates. What do you think your obligations are or the 
advisory board--or body's obligation is to respond to our 
inquiries? Because my fear is there is advice being given to 
agencies and we say tell us--you share with us the direction 
you are going there and we get stonewalled.
    Dr. Holdren. Well, I am not sure what in particular you are 
referring to. My office--the White House Office of Science and 
Technology Policy is of course responsible for providing above 
all science and technology advice to the President and his 
other senior advisers----
    Mr. Schweikert. Well, but if----
    Dr. Holdren. --but I testify regularly before Congress and 
our reports, which embody the bulk of our advice, are available 
on our website----
    Mr. Schweikert. Well, but no. We had already had several 
occasions on this Committee where we have reached out to--is it 
ERDDA--and said share with us the advice you are giving to 
certain agencies and we don't get it back.
    And let me sort of do a hop-skip and we can--and I will 
even follow up with this one in writing. Congressman Neugebauer 
was asking a question about within the budget line, the study 
of hydraulic fracturing horizontal drilling, correct?
    Dr. Holdren. Yes, he was asking.
    Mr. Schweikert. And within that, part of his question he 
was trying to ask is you have designed budget line items but 
yet you apparently haven't actually designed what the study is 
going to look like.
    Dr. Holdren. Oh, the study is underway.
    Mr. Schweikert. Then when we had asked for how are you 
doing your sample set, are you reviewing the literature? Are 
you sending people out to do actual, you know, hard samples? 
How come we are having trouble getting that information 
delivered to us?
    Dr. Holdren. I had not been aware that you were having 
trouble but if you direct that inquiry to me, I will provide 
you with answers.
    Mr. Schweikert. So could you at least commit to myself or 
more importantly the Chairman, could we have the design plan? I 
have a fixation on baseline data sampling because I believe it 
often ends up--you know, we often talk about the modeling that 
you and I know your first sin is always--or your first 
cornerstone is in how you choose to collect the data. So if you 
would be willing to provide us a plan on how the study is built 
and obviously that would be reflected in the budget request, 
that will go a long way for confidence in this Committee.
    Dr. Holdren. Good. I will try to do that.
    Mr. Schweikert. Last two things, and I know I am way over 
time, there is some complement out there, but I also think we 
need to make sure our friends on both sides understand some of 
the groups you oversee have protocols on blinding personal 
data. We do it in the census; we do it in medical research. And 
so there is sort of a national standard for doing that. I do a 
sample set. I have individual personal data. If that data is 
going to be made public, you have a way of doing placeholders, 
correct?
    Dr. Holdren. Correct.
    Mr. Schweikert. So--because we had sort of a bizarre 
conversation in this Committee about six weeks ago where there 
seemed to be a misunderstanding that there is--it is standard 
protocol on how to blind individual data.
    The last thing, do--who in your organization sort of 
watches peer-review publications because I now have a binder on 
my desk in my office now of articles where we are realizing how 
much--I am uncomfortable using the word fraud but how many 
outliers we are finding where really bad data is being used in 
peer-reviewed studies, publications, grants, and how do we fix 
that? And I am a believer that, you know, the crowd putting 
things out in the internet and having lots of voices talk about 
it will help us find where we are funding studies that the 
underlying data sets either were grossly misinterpreted or 
actually outright fraud.
    Dr. Holdren. This is a really important issue. We devoted a 
public session of the last meeting of the President's Council 
of Advisors on Science and Technology to it. We invited the 
editors-in-chief of both Nature and Science, the two most 
important science journals in the world, plus a number of 
experts on data and the pitfalls that occur. Within my 
organization, the Associate Director for Science currently 
awaiting confirmation is the person who has the most direct 
oversight of that set of issues, but we are concerned about it. 
We are interested in it--
    Mr. Schweikert. Professor----
    Dr. Holdren. --and we will look at it.
    Mr. Schweikert. I am elated to hear that it is--because as 
you know, so often we base public policy and spending and then 
later find out there was something horribly wrong in that model 
or the underlying samples or just outright fraud to get the 
grant.
    Can I beg of you, send me a note--send me something in 
writing of who I should reach out to because I----
    Dr. Holdren. Sure.
    Mr. Schweikert. --actually have a powerful interest in 
this----
    Dr. Holdren. Yes.
    Mr. Schweikert. --because of my concern that resources may 
be going askew because of bad acts.
    Dr. Holdren. I would be happy to respond to you----
    Mr. Schweikert. And with that, I know I am way over time. 
Thank you for your patience, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Schweikert.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Dr. Holdren, welcome back. Thank you so much for your 
testimony and for your work. I want to start by saying I am 
glad to see the Administration acknowledged the importance of 
the Manufacturing Extension Partnership program. That was 
several companies in Oregon who have benefited from the MEP 
program so--through NIST. Thank you very much.
    I am also encouraged to see the Administration focusing 
resources on innovative energy projects at ARPA-E, specifically 
the potential of battery technology. I recently spoke with 
someone from a utility in Oregon, Portland General Electric, 
and they recently installed a 5 megawatt lithium ion battery-
powered energy storage facility. It happens to be on top of the 
Kettle brand facility rooftop, so we can think about that 
whenever we are eating Kettle chips.
    So that is in Salem, Oregon, and it is partially funded by 
the Department of Energy's Pacific Northwest Smart Grid 
Demonstration Project, but they have learned an immense amount 
about how efficient battery technology can help the grid 
integrate renewable energy resources, so more R&D in battery 
technology I see as a win-win. Really a common goal and what we 
have been talking about throughout this hearing and all the 
disciplines is how we keep our country competitive, how do we 
have an innovative workforce.
    I want to mention the Innovation Corps program with NSF to 
commercialize university research, which you mentioned in your 
testimony. I was wondering how that program will be structured 
and I encourage you to look at the Oregon ONAMI, Oregon 
Nanoscience and Microtechnologies Institute. They are doing 
great work with commercialization of materials science and 
systems technology.
    I want to follow up on the STEM education discussion as 
well. You referenced the 21st century community learning 
centers, a way to bring STEM education outside the traditional 
school day. I recently met with students at the Forest Grove, 
Oregon, high school who are part of the 4-H Tech Wizards 
afterschool program. That is a great opportunity for students 
to engage outside of the school day.
    And on that note, we have had great discussion already, Dr. 
Bera and Representative Kennedy, and Representative Hultgren 
mentioned the FIRST robotics program. Hands-on learning is so 
important.
    And I wanted to follow up on that. You may recall I am the 
Co-Chair of the bipartisan STEAM Caucus, integrating arts and 
design broadly defined into STEM learning. There is plenty of 
research to show that educating and exercising the right brain 
helps to educate creative and innovative students who become 
innovators and entrepreneurs, and simply put, we want people 
who cannot just answer questions but also know what questions 
to ask.
    So you talked about the updates to the STEM reorganization 
plan for the Fiscal Year budget, and on the Hill we have 
witnessed a growing consensus about how do we expand STEM 
education. You mentioned reaching out to underrepresented 
populations. So can you expand on whether that plan 
acknowledges the benefit of including alternative approaches to 
STEM education?
    Dr. Holdren. Well, first of all, I commend your interest in 
the STEAM approach and the progress being made with it. I think 
it is important to remember the relevance of the humanities and 
the arts as we think about our education portfolio overall. And 
I think some of the kinds of activities that are in the various 
programs listed under STEM undoubtedly are including these 
other dimensions as well. I think many of the outreach and the 
community-based programs are doing that, so basically, I could 
only agree with your comments.
    Ms. Bonamici. Well, thank you. The more we learn about the 
parallels between the science and art--and the last time I 
asked this question I mentioned a study that was done about the 
number of Nobel laureates in sciences who also engage in arts 
and crafts is phenomenal and they recommend that students 
studying in the STEM disciplines also have art and crafts 
experience. It really is hands-on learning but again leads to 
that creativity and innovation that we want in our workforce.
    And could you follow up a little bit about the Innovation 
Corps and how that program will be structured through NSF to 
help commercialize research?
    Dr. Holdren. Well, that is a program that has already been 
going on in NSF, and my understanding is that it is already 
successful in basically including, in a number of the 
activities that NSF funds, training on how to be an 
entrepreneur, how to translate discoveries in the laboratory 
into practical applications that can become the basis of 
businesses and social good. So I think it is a great program. I 
think it is working and we should continue to support it.
    Ms. Bonamici. Thank you very much. My time is expired. I 
yield back.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici, appreciate that.
    The gentleman from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you, Mr. Chairman, and welcome, Dr. 
Holdren. Appreciate you being back again.
    I don't remember if it was Mark Twain or Will Rogers or 
Ambrose Bierce or somebody like that that said all scientists 
are only sure about one thing and that is that all scientists 
before that were wrong. Have you ever heard that comment?
    Dr. Holdren. I have heard of versions of it.
    Mr. Weber. Okay. Well, who was it that said that? No idea.
    So when you guys do your research you start with the 
scientific--what do they call it--postulate or theory and you 
work from that direction forward, is that right?
    Dr. Holdren. It depends on what sort of science that you 
are talking about, but the notion of posing a hypothesis and 
then trying to determine whether it is right is one of the 
tried-and-true approaches in science, yes.
    Mr. Weber. So I am just wondering how that related to like, 
for example, global warming and eventually global cooling? And 
I may want to get your cell phone number because if we do go 
through a couple cycles, global warming and then back to global 
cooling, I will need to know when to buy my long coat on sale. 
So I just don't know how you all prove those hypotheses going 
back 50, 100, you know, what you might say is thousands of if 
not even millions of years and how you postulate those forward. 
But we will get into that in a little bit.
    The Keystone pipeline I am very, very interested in because 
it comes into my district, delivers 840,000 barrels of oil a 
day. It will help get us off oil from the Middle East or 
Venezuela and produce jobs over here. And the State Department 
actually came out with a finding and said--it was one of those 
scientific hopefully findings I guess--that ``the approval or 
denial of any one crude oil transport project, including the 
proposed project, is unlikely to significantly impact the rate 
of extraction in the oil sands or the continued demand for 
heavy crude oil at refineries in the United States.'' Do you 
agree with that statement from the State Department?
    Dr. Holdren. Well, I would say, number one, I have not done 
a review----
    Mr. Weber. Okay.
    Dr. Holdren. --at this point of the State Department's 
analysis of that----
    Mr. Weber. Okay.
    Dr. Holdren. --and not having looked at the analysis, I 
don't want to say whether I agree with it or not----
    Mr. Weber. Okay.
    Dr. Holdren. --but it is a respectable position. There are 
others.
    Mr. Weber. So they are from the government and they are 
here to help.
    So looking at your budget as you have put it forward in the 
different areas there is one, like Congressman Neugebauer said, 
on fracking where that study has never been done. Do you know 
if there is any plans--in Texas--one of my other colleagues--
and maybe it was Congressman Neugebauer--refer to the fact that 
we have been in fracking since 1945, which if my high school 
math holds up would be 65 years.
    Do you all ever think about perhaps getting with the 
agencies in Texas that actually have that experience and that 
deal with it every day? And in fact in Texas we would say we 
have been doing it longer than anybody else. Any plans to get 
with the TCEQ and those that have experience?
    Dr. Holdren. I suspect that that outreach has happened as 
part of the study----
    Mr. Weber. Could that help your budget--would that help 
your budget numbers go down because you could rely on their 
experience?
    Dr. Holdren. I suspect the budget numbers take into account 
the fact that we have been reaching out to the constituencies 
that do this.
    Mr. Weber. Okay. Do you think that it is possible that if 
we had more manufacturing jobs based on this energy renaissance 
that we are about to experience if the government will get out 
of the way--that if we had more manufacturing jobs, that we 
could take more Americans off of the unemployment rolls and 
welfare so to speak and that we could actually get more 
taxpayers on the rolls and then we could actually have more 
money for the budget to do the very thing you want to do, which 
would be more research and to put more money into an all-of-
the-above energy program? Does that make sense to you?
    Dr. Holdren. Absolutely it makes sense and the 
Administration is all in favor of increasing the number of 
manufacturing jobs, and we have been trying to do that in a 
number of ways.
    Mr. Weber. Well, they keep saying that, but looking at the 
energy renaissance and the war on coal plants and the--I mean I 
don't think that is deniable, war on coal plants and war on 
fossil fuels and the dragging of the Keystone pipeline permit, 
which has been now five years, five years.
    Do you have any plans--do you weigh in with the President? 
Do you say, Mr. President, in our--from our vantage point if 
you would approve the permit, as the State Department said, 
using the State Department language--it was an amendment I got 
on a bill in the--through the House taking the permitting 
process away from the President, do you have any--can you say 
to the President, Mr. President, the State Department is saying 
it is a go. What is the holdup?
    Dr. Holdren. As I understand it, the ball on that issue is 
still in the State Department's court. That was an analysis. 
The Secretary of State has not made a national interest 
determination at this point and so we are awaiting that.
    Mr. Weber. But you are the scientist. You have the budget--
you are putting together the budget. You want more research, 
you want more money to do these kinds of things, and if we can 
get more taxpayers, we can increase the budget, right?
    Dr. Holdren. Absolutely. As I have said, we are in favor of 
increasing manufacturing jobs in this country and it would 
bring many benefits.
    Mr. Weber. Well, I hope when you leave here you will call 
the President and tell him you and I had this conversation and 
I am recommending approval of the Keystone pipeline.
    Thank you, Dr. Holdren.
    Chairman Smith. Thank you, Mr. Weber.
    The gentleman from California, Mr. Swalwell, is recognized.
    Mr. Swalwell. Thank you, Mr. Chairman, and thank you, Dr. 
Holdren.
    And, Dr. Holdren, I have to say I am disappointed that many 
of my colleagues across the aisle have used this hearing, 
titled key issues for the President's Fiscal Year 2015 research 
and development budget, to re-litigate whether climate change 
is happening and whether it is manmade, and at this rate, 
frankly, I have to say you should be prepared to address 
whether the Earth is round or flat; that might come up, or 
whether indeed gravity is happening. You never know what can 
fly at you from what we have seen already.
    And I have to say that with 97 percent of the scientists 
stating, and as you pointed out that that is an approximation 
based on statistics, that climate change is manmade, I am 
encouraged to see that some of my colleagues across the aisle 
have been a voice for the minority, three percent of scientists 
today.
    This is encouraging for other minorities that my colleagues 
across the aisle have not helped out, including immigrants who 
are waiting for comprehensive immigration reform, minorities 
like women who have not received equal pay for equal work, 
minorities who are affected by the Voting Rights Act where 
action has not taken, as well as gay and lesbian minorities who 
have been oppressed by some of the policies that my colleagues 
across the aisle have put in place.
    So the colleagues who are standing up for the three percent 
scientists who do not believe in climate change, I am 
encouraged that they are now a voice for the minority.
    But you are here to discuss the President's Fiscal Year 
2015 budget, and I have a question first about the National 
Ignition Facility, which is in my district in Livermore, 
California. And I want to know, in light of the recent alpha 
heating phenomenon that occurred there, do you still believe 
that that fusion project is near the goal line and that 
ignition is near achievement and what that means for future 
rounds of funding?
    Dr. Holdren. Well, first of all, I applaud the advances 
that have been made at NIF over the past year. I think they are 
important. I think it is still quite some distance from the 
finish line. When you look at the energetics every step of the 
way, there is considerably more progress that needs to be made 
before we can say we actually have ignition, and there would be 
more progress beyond that that would be needed to convert that 
achievement into a workable fusion reactor. But the project is 
well worth pursuing. The 329 million in the budget for pursuing 
it should enable a good deal of further progress and I look 
forward to seeing that.
    Mr. Swalwell. I also wanted to talk a little bit about the 
inertial fusion research that is in the budget, and 
particularly that the National Ignition Facility and the Z 
Pulsed Power Facility have enough technical promise to justify 
dedicated federal support for inertial fusion R&D relevant to 
energy, not just weapons reliability, as Ms. Lofgren pointed 
out.
     However, there is currently no program in the federal 
government which directly officially supports inertial fusion 
research and technology developments activity for energy 
production purposes. Rather, the Administration is proposing to 
eliminate all of the activities in the Fusion Energy Sciences 
program that could make important contributions to fusion 
research, including an experiment at Lawrence Berkeley National 
Laboratory that is only beginning to operate this year.
    So my question is do you believe that the Department should 
address the findings of this National Academies report, which 
found that these concepts have technical promise and at least 
find a way to allow strong merit-reviewed proposal for inertial 
fusion energy research to be eligible for federal support?
    Dr. Holdren. Let me make a couple of quick comments. We of 
course are aware of the National Academies report. We recognize 
the progress that has been made in inertial confinement fusion 
in a number of different ways, with the lasers, with pulse 
power, with ion beams. Those approaches of course have not yet 
demonstrated the level of performance that would be needed to 
convert them into an energy source. They are in fact still well 
short of the performance of the magnetic confinement approach, 
which is being pursued in parallel.
    Under the budget restraints we face, we think the most 
important thing to continue funding in the inertial confinement 
space is the NIF and its progression toward ignition.
    The experiment you mentioned at the Lawrence Berkeley Lab 
is a small one completed at a cost of about $11 million. It 
began operating two years ago but it has fallen far short of 
its design specifications and so it is hard to keep it near the 
top of the priority list given the tight budget and the 
performance shortfalls in that particular device.
    Mr. Swalwell. Thank you, Dr. Holdren. Thank you for your 
service to our country, for your belief in science, and for now 
knowing what to be better prepared to discuss next time you 
come back, including whether gravity is really occurring and 
whether our Earth is flat or round.
    Thank you and I yield back.
    Chairman Smith. Thank you, Mr. Swalwell.
    Dr. Holdren, thank you for your testimony today. We 
appreciate that very much.
    Our record will stay open for a couple of weeks in case 
Members have additional questions to submit. And with that, we 
stand adjourned.
    [Whereupon, at 12:08 p.m., the Committee was adjourned.]







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
